N o.
I N T H E
S U P R E M E C O U R T O F T H E U NI T E D S T A T E S
__________◆ ___________
L A R R Y H A R RI S a n d MI C H A E L S T E W A R D
P etiti o n e r s,
v.
U N I T E D S T A T E S O F A M E R I C A,
R e s p o n d e nt.
O n P etiti o n f o r a W rit of C e rti o r a ri
t o t h e U nit e d St at e s C o u rt of A p p e al s F o r T h e Ni nt h Ci r c uit
__________◆ ___________
J OI N T A P P E N DI X
__________◆ ___________

A P P E N D I X A:

O r d e r of t h e U nit e d St at e s C o u rt of A p p e al s f o r t h e Ni nt h
Ci r c uit C o u rt D e n yi n g H a r ri s ’ R e q u e st f o r a C e rtifi c at e of
A p p e al a bilit y i n U nit e d St at e s of A m e ri c a v. L a r r y
H a r ri s , U. S. C. A. 1 7 -1 6 7 5 8 ( O ct o b e r 1, 2 0 2 0)..............................A 1

A P P E N DI X B :

O r d e r of t h e U nit e d St at e s C o u rt of A p p e al s f o r t h e Ni nt h
Ci r c uit C o u rt D e n yi n g St e w a r d’ s R e q u e st f o r a C e rtifi c at e
of A p p e al a bilit y i n U nit e d St at e s of A m e ri c a v. Mi c h a el
St e w a r d, U. S. C. A. 1 7 -1 6 7 5 9 ( O ct o b e r 1, 2 0 2 0) ........................... B 1

A P P E N DI X C :

U nit e d St at e s of A m e ri c a v. L a r r y H a r ri s a n d Mi c h a el
St e w a r d, O r d e r D e n yi n g B ot h a C e rti fi c at e of

A p p e al a bilit y a n d D ef e n d a nt s’ M oti o n s t o Va c at e, S et
A si d e, o r C o r r e ct t h ei r S e nt e n c e u n d e r 2 8 U. S. C. § 2 2 5 5,
Di st ri ct C o u rt f o r t h e E a st e r n Di st ri ct of C alif o r ni a,
U. S. D. C. N o. 1: 9 5 -c r -0 5 1 1 1 -L J O (A u g u st 2 1 , 2 01 7 ) ........... C 1-C 1 3

A P P E N DI X D :

U nit e d St at e s of A m e ri c a v. L a r r y H a r ri s,

J u d g m e nt i n a C ri mi n al C a s e b y t h e U nit e d St at e s
Di st ri ct C o u rt f o r t h e E a st e r n Di st ri ct of C alif o r ni a,
U. S. D. C. N o. 9 5 -c r -0 5 1 1 1 -L J O (S e pt e m b e r 1 6 , 1 9 9 6 ) ..........D 1- D 7

A P P E N DI X E :

U nit e d St at e s of A m e ri c a v. Mi c h a el St e w a r d ,

A P P E N DI X F :

U nit e d St at e s of A m e ri c a v. L a r r y H a r ri s,

J u d g m e nt i n a C ri mi n al C a s e b y t h e U nit e d St at e s
Di st ri ct C o u rt f o r t h e E a st e r n Di st ri ct of C alif o r ni a,
U. S. D. C. N o. 1: 9 5 -c r -0 5 1 1 1 -L J O (S e pt e m b e r 1 6 , 1 9 9 6 ) ....... E 1-E 7
V e r di ct of T ri al J u r y
Di st ri ct C o u rt f o r t h e E a st e r n Di st ri ct of C alif o r ni a,
U. S. D. C. N o. 9 5 -c r -0 5 1 1 1 -L J O (S e pt e m b e r 1 6, 1 9 9 6 ) .......... F 1 -F 3

C a s e: 1 7- 1 6 7 5 8, 1 0/ 0 1/ 2 0 2 0, I D: 1 1 8 4 4 2 1 7, D kt E ntr y: 4, P a g e 1 of 1

FI L E D

U NI T E D S T A T E S C O U R T O F A P P E A L S

O CT 1 2020

F O R T H E NI N T H CI R C UI T

M O L L Y C. D W Y E R, C L E R K

U NI T E D S T A T E S O F A M E RI C A,
Pl ai ntiff -A p p ell e e,
v.
L A R R Y D A NI E L H A R RI S,
D ef e n d a nt -A p p ell a nt.
B ef or e:

N o.

1 7 -1 6 7 5 8

U. S. C O U R T O F A P P E A L S

D. C. N os.

1: 1 7 -c v -0 0 2 4 9 -LJ O
1: 9 5 -cr -0 5 1 1 1 -LJ O -3
E ast er n Distri ct of C alif or ni a,
Fr es n o
OR DER

H A W KI N S a n d F RI E D L A N D, Cir c uit J u d g es.

T h e st a y e nt er e d o n J a n u ar y 2 4, 2 0 1 8 ( D o c k et E ntr y N o. 3 ), is lift e d.
T h e r e q u est f or a c ertifi c at e of a p p e al a bilit y ( D o c k et E ntr y N o. 2) is d e ni e d
b e c a us e a p p ell a nt h as n ot m a d e a “s u bst a nti al s h o wi n g of t h e d e ni al of a
c o nstit uti o n al ri g ht. ” 2 8 U. S. C. § 2 2 5 3( c)( 2); s e e als o Mill er -El v. C o c kr ell , 5 3 7
U. S. 3 2 2, 3 2 7 ( 2 0 0 3); U nit e d St at es v. D o mi n g u ez , 9 5 4 F. 3 d 1 2 5 1, 1 2 6 0-6 1 ( 9t h
Cir. 2 0 2 0).
A n y p e n di n g m oti o ns ar e d e ni e d as m o ot.
D E NI E D.

A1

C a s e: 1 7- 1 6 7 5 9, 1 0/ 0 1/ 2 0 2 0, I D: 1 1 8 4 4 1 7 1, D kt E ntr y: 4, P a g e 1 of 1

FI L E D

U NI T E D S T A T E S C O U R T O F A P P E A L S

O CT 1 2020

F O R T H E NI N T H CI R C UI T

M O L L Y C. D W Y E R, C L E R K

U NI T E D S T A T E S O F A M E RI C A,
Pl ai ntiff -A p p ell e e,
v.
MI C H A E L E U G E N E S T E W A R D,
D ef e n d a nt -A p p ell a nt.
B ef or e:

N o.

1 7 -1 6 7 5 9

U. S. C O U R T O F A P P E A L S

D. C. N os.

1: 1 6 -c v -0 1 9 5 2 -LJ O
1: 9 5 -cr -0 5 1 1 1 -LJ O -2
E ast er n Distri ct of C alif or ni a,
Fr es n o
OR DER

H A W KI N S a n d F RI E D L A N D, Cir c uit J u d g es.

T h e st a y e nt er e d o n J a n u ar y 2 4, 2 0 1 8 ( D o c k et E ntr y N o. 3 ), is lift e d.
T h e r e q u est f or a c ertifi c at e of a p p e al a bilit y ( D o c k et E ntr y N o. 2) is d e ni e d
b e c a us e a p p ell a nt h as n ot m a d e a “s u bst a nti al s h o wi n g of t h e d e ni al of a
c o nstit uti o n al ri g ht. ” 2 8 U. S. C. § 2 2 5 3( c)( 2); s e e als o Mill er -El v. C o c kr ell , 5 3 7
U. S. 3 2 2, 3 2 7 ( 2 0 0 3); U nit e d St at es v. D o mi n g u ez , 9 5 4 F. 3 d 1 2 5 1, 1 2 6 0-6 1 ( 9t h
Cir. 2 0 2 0).
A n y p e n di n g m oti o ns ar e d e ni e d as m o ot.
D E NI E D.

B1

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 1 of 1 3

1
2
3
4
5
6
7

U NI T E D S T A T E S DI S T RI C T C O U R T

8

F O R T H E E A S T E R N DI S T RI C T O F C A LI F O R NI A

9
10

13

M
O
M
O
P

Pl ai ntiff -R es p o n d e nt ,

11
12

C A S E N O. 1: 9 5 -C R -0 5 1 1 1 -LJ O -2

U NI T E D S T A T E S O F A M E RI C A,

v.
MI C H A E L E U G E N E S T E W A R D S,

M O R A N D U M D E CI S IO N A N D
D E R D E N YI N G P E TI TI O N E R ’S
TI O N T O V A C A T E, S E T A SI D E,
C O R R E C T HI S S E N T E N C E
R S U A N T T O 2 8 U. S. C. § 2 2 5 5

E C F No .604

D ef e n d a nt -P etiti o n e r .

14

E
R
O
R
U

15
16

19
20

M
O
M
O
P

Pl ai ntiff -R es p o n d e nt ,

17
18

C A S E N O. 1: 9 5 -C R -0 5 1 1 1 -LJ O -3

U NI T E D S T A T E S O F A M E RI C A,

v.
L A R R Y D A NI E L H A R RI S,

E
R
O
R
U

M O R A N D U M D E CI SI O N A N D
D E R D E N YI N G P E TI TI O N E R’ S
TI O N T O V A C A T E, S E T A SI D E,
C O R R E C T HI S S E N T E N C E
R S U A N T T O 2 8 U. S. C. § 2 2 5 5

E C F N o. 6 0 0

D ef e n d a nt -P etiti o n e r .

21
22
23
24
25
26

I. I N T R O D U C TI O N
B ef or e t h e C o urt ar e P etiti o n ers Mi c h a el E u g e n e St e w ar d ( “ St e w ar d ”) a n d L arr y D a ni el H arris’
( “ H arris ”) ( c oll e cti v el y, “ P etiti o n ers” or “ D ef e n d a nt s ”) m oti o ns t o v a c at e, s et asi d e, or c orr e ct t h eir

1

C1

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 2 of 1 3

1

s e nt e n c es u n d er 2 8 U. S. C. § 2 2 5 5 ( “ § 2 2 5 5 ”). ( E C F N os. 6 0 0, 6 0 4 .) P etiti o n ers e a c h fil e d a p pli c ati o ns

2

f or p er missi o n t o fil e a s e c o n d or s u c c essi v e § 2 2 5 5 m oti o ns t o t h e Ni nt h Cir c uit, wit h t h eir m oti o ns

3

att a c h e d, o n J u n e 2 3, 2 0 1 6. ( E C F N os. 6 0 0, 6 0 4.) T h e Ni nt h Cir c uit gr a nt e d H arris’ a p pli c ati o n f or l e a v e

4

t o fil e a s e c o n d or s uc c essi v e § 2 2 5 5 m oti o n o n F e br u ar y 2 1, 2 0 1 7 ( E C F N o. 5 9 9), a n d gr a nt e d

5

St e w ar d’s a p pli c ati o n o n M ar c h 2 1, 2 0 1 7 ( E C F N o. 6 0 3). O n M ar c h 2 4, 2 0 1 7, t h e G o v er n m e nt fil e d its

6

o p p ositi o n t o b ot h m oti o ns. ( E C F N o. 6 0 6.) P etiti o n ers e a c h fil e d r e pli es o n A pril 2 6, 2 0 1 7 . ( E C F N os.

7

6 0 7, 6 0 8. ) H a vi n g c o nsi d er e d t h e p arti es’ bri efi n g a n d t h e r e c or d i n t his c as e, t h e C o urt D E NI E S

8

P etiti o n ers’ m oti o ns u n d er § 2 2 5 5.
II. B A C K G R O U N D

9

O n M a y 2 8, 1 9 9 6, a j ur y f o u n d H arris g uilt y of si x c o u nts of H o b bs A ct r o b b er y ( 1 8 U. S. C.

10
11

§ 1 9 5 1) a n d si x c o u nts of usi n g a n d c arr yi n g a fir e ar m d uri n g a cri m e of vi ol e n c e ( 1 8 U. S. C. § 9 2 4( c)).

12

( E C F N o. 2 1 3.) T h e s a m e d a y, St e w ar d w as f o u n d g uilt y of t hr e e c o u nts e a c h of H o b bs A ct r o b b er y a n d

13

c arr yi n g a fir e ar m i n r el ati o n t o a cri m e of vi ol e n c e. ( I d.) O n S e pt e m b er 5, 1 9 9 6, H arris w as s e nt e n c e d

14

t o 1 2 1 m o nt hs c o n c urr e nt o n e a c h of si x c o u nts of i nt erf er e n c e wit h i nt erst at e c o m m er c e b y r o b b er y, 6 0

15

c o ns e c uti v e m o nt hs o n t h e first c o u nt of usi n g a fir e ar m i n r el ati o n t o a cri m e of vi ol e n c e a n d 2 4 0

16

c o ns e c uti v e m o nt hs o n e a c h of f o ur ot h er c o u nts of usi n g a fir e ar m i n r el ati o n t o a cri m e of vi ol e n c e, f or

17

a t ot al t er m of 1 1 4 1 m o nt hs. ( E C F N o. 2 5 7.) St e w ar d w as s e nt e n c e d t o 5 7 m o nt hs o n e a c h of t hr e e

18

c o u nts of i nt erf er e n c e wit h i nt erst at e c o m m er c e b y r o b b er y (t o b e s er v e d c o n c urr e ntl y), 6 0 m o nt hs o n

19

t h e first c o u nt of usi n g a fir e ar m i n r el ati o n t o a cri m e of vi ol e n c e a n d 2 4 0 m o nt hs o n e a c h of t w o ot h er

20

c o u nts of usi n g a fir e ar m i n r el ati o n t o a cri m e of vi ol e n c e (t o b e s er v e d c o ns e c uti v el y), f or a t ot al t er m

21

of 5 9 7 m o nt hs. ( E C F N o. 2 5 6.)
III. L E G A L F R A M E W O R K

22
23
24
25
26

A.

2 8 U. S. C. § 2 2 5 5
S e cti o n 2 2 5 5 pr o vi d es f o ur gr o u n ds u p o n w hi c h a s e nt e n ci n g c o urt m a y gr a nt r eli ef t o a

p etiti o ni n g i n- c ust o d y d ef e n d a nt:
2

C2

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 3 of 1 3

[ 1] t h at t h e s e nt e n c e w as i m p os e d i n vi ol ati o n of t h e C o nstit uti o n
or l a ws of t h e U nit e d St at es, or [ 2] t h at t h e c o urt w as wit h o ut
j uris di cti o n t o i m p os e s u c h s e nt e n c e, or [ 3] t h at t h e s e nt e n c e w as i n
e x c ess of t h e m a xi m u m a ut h ori z e d b y l a w, or [ 4] is ot h er wis e
s ubj e ct t o c oll at er al att a c k.

1
2
3
4

2 8 U. S. C. § 2 2 5 5( a). G e n er all y, o nl y a n arr o w r a n g e of cl ai ms f all wit hi n t h e s c o p e of § 2 2 5 5. U nit e d

5

St at es v. W il c o x, 6 4 0 F. 2 d 9 7 0, 9 7 2 ( 9t h Cir. 1 9 8 1). T h e all e g e d err or of l a w m ust b e “ a f u n d a m e nt al

6

d ef e ct w hi c h i n h er e ntl y r es ults i n a c o m pl et e mis c arri a g e of j usti c e. ” D a vis v. U nit e d St at es , 4 1 7 U. S.

7

3 3 3, 3 4 6 ( 1 9 7 4).

8

B.

9

J o h ns o n II a n d W el c h
P urs u a nt t o t h e Ar m e d C ar e er Cri mi n al A ct ( “ A C C A ”), a d ef e n d a nt m ust b e s e nt e n c e d t o a

10

m a n d at or y mi ni m u m of 1 5 y e ars t o lif e i n pris o n if h e h as t hr e e pri or c o n vi cti o ns f or “ a vi ol e nt f el o n y or

11

a s eri o us dr u g off e ns e, or b ot h. ” 1 8 U. S. C. § 9 2 4( e)( 1). T h e A C C A d efi n es “ vi ol e nt f el o n y ” as a n y

12

cri m e p u nis h a bl e b y i m pris o n m e nt f or a t er m e x c e e di n g o n e y e ar t h at:

13
14
15
16
17
18
19
20
21
22
23
24
25
26

(i) h as as a n el e m e nt t h e us e, att e m pt e d us e, or t hr e at e n e d us e of p h ysi c al f or c e a g ai nst t h e
p ers o n of a n ot h er; or
(ii) is b ur gl ar y, ars o n, or e xt orti o n, i n v ol v es us e of e x pl osi v es, or ot h er wis e i n v ol v es c o n d u ct t h at
pr es e nts a s eri o us p ot e nti al ris k of p h ysi c al i nj ur y t o a n ot h er.
1 8 U. S. C. § 9 2 4( e)( 2)( B) ( e m p h asis a d d e d). C o urts g e n er all y r ef er t o t h e first cl a us e, § 9 2 4( e)( 2)( B)(i),
as t h e “ el e m e nts cl a us e ”; t h e first p art of t h e disj u n cti v e st at e m e nt i n (ii) as t h e “ e n u m er at e d off e ns es
cl a us e ”; a n d its s e c o n d p art (st arti n g wit h “ or ot h er wis e ”) as t h e “r esi d u al cl a us e. ” J o h ns o n v. U nit e d
St at es , 1 3 5 S. Ct. 2 5 5 1, 2 5 5 6- 5 7, 2 5 6 3 ( 2 0 1 5) ( “J o h ns o n II ” ); U nit e d St at es v. L e e , 8 2 1 F. 3 d 1 1 2 4, 1 1 2 6
( 9t h Cir. 2 0 1 6).
I n J o h ns o n II , t h e S u pre m e C o urt h el d t h at “i m p osi n g a n i n cr e as e d s e nt e n c e u n d er t h e r esi d u al
cl a us e of t h e Ar m e d C ar e er Cri mi n al A ct vi ol at es t h e C o nstit uti o n’s g u ar a nt e e of d u e pr o c ess, ” o n t h e
b asis t h at “t h e i n d et er mi n a c y of t h e wi d e-r a n gi n g i n q uir y r e q uir e d b y t h e r esi d u al cl a us e b ot h d e ni es f air
n oti c e t o d ef e n d a nts a n d i n vit es ar bitr ar y e nf or c e m e nt b y j u d g es. ” 1 3 5 S. Ct. at 2 5 5 7, 2 5 6 3. “ T w o

3

C3

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 4 of 1 3

1

f e at ur es of t h e r esi d u al cl a us e c o ns pir e t o m a k e it u n c o nstit uti o n all y v a g u e. ” I d. at 2 5 5 7. First, “t h e

2

r esi d u al cl a us e l ea v es gr a v e u n c ert ai nt y a b o ut h o w t o esti m at e t h e ris k p os e d b y a cri m e ” b y “t[ yi n g] t h e

3

j u di ci al ass ess m e nt of ris k t o a j u di ci all y i m a gi n e d ‘ or di n ar y c as e’ of a cri m e, n ot t o r e al- w orl d f a cts or

4

st at ut or y el e m e nts. ” I d. S e c o n d, “[ b] y c o m bi ni n g i n d et er mi n a c y a b o ut h o w t o m e as ur e t h e ris k p os e d b y

5

a cri m e wit h i n d et er mi n a c y a b o ut h o w m u c h ris k it t a k es f or t h e cri m e t o q u alif y as a vi ol e nt f el o n y, t h e

6

r esi d u al cl a us e pr o d u c es m or e u n pr e di ct a bilit y a n d ar bitr ari n ess t h a n t h e D u e Pr o c ess Cl a us e

7

t ol er at es. ” I d. at 2 5 5 8.

8

T h e S u pr e m e C o urt s u bs e q u e ntl y h el d t h at its d e cisi o n i n J o h ns o n II a n n o u n c e d a n e w

9

s u bst a nti v e r ul e t h at a p pli es r etr o a cti v el y t o c as es o n c oll at er al r e vi e w. W el c h v. U nit e d St at es , 1 3 6 S.

10

Ct. 1 2 5 7, 1 2 6 8 ( 2 0 1 6). “ B y stri ki n g d o w n t h e r esi d u al cl a us e f or v a g u e n ess, [ J o h ns o n II ] c h a n g e d t h e

11

s u bst a nti v e r e a c h of t h e Ar m e d C ar e er Cri mi n al A ct, alt eri n g t h e ‘r a n g e of c o n d u ct or t h e cl ass of

12

p ers o ns t h at t h e [ A ct] p u nis h es. ” I d. at 1 2 6 5 ( q u oti n g S c hrir o v. S u m m erli n , 5 4 2 U. S. 3 4 8, 3 5 3 ( 2 0 0 4)).

13

As a r e s ult, d ef e n d a nts s e nt e n c e d p urs u a nt t o t h e A C C A r esi d u al cl a us e c a n c oll at er all y att a c k t h eir

14

s e nt e n c es as u n c o nstit uti o n al u n d er § 2 2 5 5. S e e, e. g. , U nit e d St at es v. H efli n , 1 9 5 F. S u p p. 3 d 1 1 3 4

15

( E. D. C al. 2 0 1 6).

16

C.

17

S e nt e n ci n g P u rs u a nt t o 1 8 U. S. C. § 9 2 4( c)( 1)( A)
S e cti o n 9 2 4( c)( 1)( A) of titl e 1 8 of t h e U. S. C o d e pr o vi d es, i nt er ali a, t h at a n y p ers o n w h o i n

18

r el ati o n t o a n y “ cri m e of vi ol e n c e ” us es or c arri es a fir e ar m s h all i n a d diti o n t o t h e p u nis h m e nt pr o vi d e d

19

f or s u c h “ cri m e of vi ol e n c e, ” b e s e nt e n c e d t o a t er m of i m pris o n m e nt of n ot l ess t h a n fi v e y e ars, t o r u n

20

c o ns e c uti v el y wit h t h e p u nis h m e nt f or t h e u n d erl yi n g “ cri m e of vi ol e n c e. ” If a fir e ar m is br a n dis h e d i n

21

t h e c o urs e of c o m mitti n g t h e “ cri m e of vi ol e n c e, ” t h e c o ns e c uti v e t er m of i m pris o n m e nt s h all b e n ot l ess

22

t h a n s e v e n y e ars ( 8 4 m o nt hs). 1 8 U. S. C. § 9 2 4( c)( 1)( A)(ii). If a fir e ar m is dis c h ar g e d, t h e c o ns e c uti v e

23

t er m of i m pris o n m e nt s h all b e n ot l ess t h an t e n y e ars. I d. § 9 2 4( c)( 1)( C)( A)(iii).

24
25
26

F or p u r p os es of 1 8 U. S. C. § 9 2 4( c)( 1)( A), a “ cri m e of vi ol e n c e ” is d efi n e d as a n off e ns e t h at is a
f el o n y an d —
4

C4

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 5 of 1 3

( A) h as as a n el e m e nt t h e us e, att e m pt e d us e, or t hr e at e n e d us e of p h ysi c al f or c e a g ai nst t h e
p ers o n or pr o p ert y of a n ot h er, or

1
2

( B) t h at b y its n at ur e, i n v ol v es a s u bst a nti al ris k t h at p h ysi c al f or c e a g ai nst t h e p ers o n or
pr o p ert y of a n ot h er m a y b e us e d i n t h e c o urs e of c o m mitti n g t h e off e ns e.

3
4

1 8 U. S. C. § 9 2 4( c)( 3). “ C o urts g e n er all y r ef er t o t h e ‘( a)’ cl a us e of s e cti o n 9 2 4( c)( 3) as t h e ‘f or c e

5

cl a us e’ a n d t o t h e ‘( b)’ cl a us e of s e cti o n 9 2 4( c)( 3) as t h e ‘r esi d u al cl a us e.’ ” U nit e d St at es v. B ell , 1 5 3

6

F. S u p p. 3 d 9 0 6, 9 1 0 (N. D. C al. 2 0 1 6).

7

I V. DI S C U S SI O N

8

P etiti o n er s c h all e n g e t h eir s e nt e n c es o n t h e b asis t h at H o b bs A ct r o b b er y i n vi ol ati o n of

9

1 8 U. S. C. § 1 9 5 1( a) is n o l o n g er d e e m e d a q u alif yi n g “ cri m e of vi ol e n c e ” f or p ur p os es of § 9 2 4( c)( 1) i n

10

li g ht of t h e S u pr em e C o urt’s d e cisi o n i n J o h ns o n II. ( E C F N o. 4 8 6 at 2.) Alt h o u g h t h e r esi d u al cl a us e i n

11

§ 9 2 4( c)( 3)( B) is n ot i d e nti c al t o t h e r esi d u al cl a us e i n t h e A C C A str u c k d o w n i n J o h ns o n II , P etitio n ers

12

ar g u e t h at it is v er y si mil ar a n d t h er ef or e u n c o nstit uti o n all y v a g u e. I n r es p o ns e, t h e G o v er n m e nt ar g u es

13

t h at P etitio n ers ar e n ot e ntitl e d t o r eli ef u n d er 2 8 U. S. C. § 2 2 5 5 b e c a us e e v e n if t h e r esi d u al cl a us e of

14

§ 9 2 4( c) is u n c o nstit uti o n al, H o b bs A ct r o b b er y is still c at e g ori c all y a cri m e of vi ol e n c e u n d er t h e

15

r e m ai ni n g “ el e m e nts ” or “f or c e ” cl a us e of § 9 2 4( c)( 3)( A). T h er ef or e, t h eir s e nt e n c es u n d er

16

§ 9 2 4( c)( 1)( A) ar e n ot aff e ct e d b y t h e S u pr e m e C o urt’s d e cisi o ns i n J o h ns o n II a n d W el c h . ( E C F N o.

17

6 0 6.) 1

18

A.

19

C at e g o ri c al A p p r o a c h
T o d et er mi n e w h et h er a n off e ns e fits t h e d efi niti o n of a “ cri m e of vi ol e n c e, ” c o urts e m pl o y t h e

20

“ c at e g ori c al a p pr o a c h ” s et f ort h i n T a yl or v. U nit e d St at es , 4 9 5 U. S. 5 7 5 ( 1 9 9 0). A c o urt a p plyi n g t h e

21

c at e g ori c al a p pr o a c h m ust “ d et er mi n e w h et h er t h e [ off e ns e] is c at e g ori c all y a ‘ cri m e of vi ol e n c e’ b y

22
23
24
25
26

1

I n a d diti o n t o t his ar g u m e nt, t h e G o v er n m e nt m a k es t w o a d diti o n al ar g u m e nts f or w h y t h e C o urt s h o ul d d e n y P etiti o n ers’ §
2 2 5 5 p etiti o ns. First, t h e G o v er n m e nt ar g u es t h at t h e r esi d u al cl a us e of § 9 2 4( c)( 3)( B) is still v ali d aft er J o h ns o n II a n d
t h er ef or e t h eir c o n vi cti o ns still q u alif y as cri m es of vi ol e n c e u n d er t h e r esi d u al cl a us e. S e c o n d, t h e G o v er n m e nt ar g u es t h at
P etiti o n ers’ m oti o ns ar e ti m e- b arr e d . B e c a us e t h e C o urt c o n cl u d es t h at H o b bs A ct r o b b er y is still c at e g ori c all y a cri m e of
vi ol e n c e u n d er t h e f or c e cl a us e of § 9 2 4( c)( 3)( A) a n d t h er ef or e t h at P etiti o n er s’ s e nt e n c es ar e n ot aff e ct e d b y J o h ns o n II , t h e
C o urt n e e d n ot a d dr ess eit h er of t h es e iss u es.

5

C5

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 6 of 1 3

1

c o m p ari n g t h e el e m e nts of t h e [ off e ns e] wit h t h e g e n eri c f e d er al d efi niti o n. ” U nit e d St at es v. S a h a g u n-

2

G all e g os , 7 8 2 F. 3 d 1 0 9 4, 1 0 9 8 ( 9t h Cir. 2 0 1 5) (i nt er n al cit ati o ns o mitt e d). B e c a us e t h e c at e g ori c al

3

a p pr o a c h is c o n c er n e d o nl y wit h w h at c o n d u ct t h e off e ns e n e c ess aril y i n v ol v es, t h e c o urt “ m ust pr es u m e

4

t h at t h e [ off e ns e] r est[s] u p o n n ot hi n g m or e t h a n t h e l e ast of t h e a cts cri mi n ali z e d, a n d t h e n d et er mi n e

5

w h et h er e v e n t h os e a cts ar e e n c o m p ass e d b y t h e g e n eri c f e d er al off e ns e. ” M o n cri eff e v. H ol d er , 1 3 3 S.

6

Ct. 1 6 7 8, 1 6 8 4 ( 2 0 1 3) (i nt er n al q u ot ati o n m ar ks a n d alt er ati o ns o mitt e d). If t h e el e m e nts of t h e off e ns e

7

“ cri mi n ali z e a br o a d er s w at h of c o n d u ct ” t h a n t h e c o n d u ct c o v er e d b y t h e g e n eri c f e d er al d efi niti o n, t h e

8

off e ns e c a n n ot q u alif y as a cri m e of vi ol e n c e, e v e n if t h e p arti c ul ar f a cts u n d erl yi n g t h e d ef e n d a nt’s o w n

9

c as e mi g ht s atisf y t h at d efi niti o n. U nit e d St at es v. D o mi n g u ez- M ar o y o q ui , 7 4 8 F. 3 d 9 1 8, 9 2 0 ( 9t h Cir.

10

2 0 1 4) (i nt er n al q u ot ati o n m ar ks o mitt e d).

11

B.

12
13
14
15
16

H o b bs A ct R o b b e r y Is C at e g o ri c all y a C ri m e of Vi ol e n c e U n d e r t h e F o r c e Cl a us e
U n d er t h e H o b bs A ct:
W h o e v er i n a n y w a y or d e gr e e o bstr u cts, d el a ys, or aff e cts c o m m er c e or
t h e m o v e m e nt of a n y arti cl e or c o m m o dit y i n c o m m er c e, b y r o b b er y or
e xt orti o n or att e m pts or c o ns pir es s o t o d o, or c o m mits or t hr e at e ns
p h ysi c al vi ol e n c e t o a n y p ers o n or pr o p ert y i n f urt h er a n c e of a pl a n or
p ur p os e t o d o a n yt hi n g i n vi ol ati o n of t his s e cti o n s h all b e fi n e d u n d er t his
titl e or i m pris o n e d n ot m or e t h a n t w e nt y y e ars, or b ot h.

17

1 8 U. S. C. § 1 9 5 1( a). T h e H o b bs A ct d efi n es “r o b b er y ” as “t h e u nl a wf ul t a ki n g or o bt ai ni n g of p ers o n al

18

pr o p ert y fr o m t h e p ers o n or i n t h e pr es e n c e of a n ot h er, a g ai nst his will, b y m e a ns of a ct u al or t hr e at e n e d

19

f or c e, or vi ol e n c e, or f e ar of i nj ur y, i m m e di at e or f ut ur e, t o his p ers o n or pr o p ert y. ” I d. § 1 9 5 1( b)( 1).

20

T h e Ni nt h Cir c uit r e c e ntl y iss u e d a n u n p u blis h e d o pi ni o n s q u ar el y o n p oi nt, h ol di n g t h at H o b bs

21

A ct r o b b er y is c at e g ori c all y a cri m e of vi ol e n c e u n d er t h e f or c e cl a us e i n § 9 2 4( c)( 3)( A). U nit e d St at es

22

v. H o w ar d , 6 5 0 F. A p p’ x 4 6 6, 4 6 8 (9t h Cir. 2 0 1 6), as a m e n d e d (J u n e 2 4, 2 0 1 6). T h e c o urt r eli e d o n a

23
24
25
26

6

C6

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 7 of 1 3
2

1

pri or Ni nt h Cir c uit d e cisi o n i nt er pr eti n g a n a n al o g o us f e d er al b a n k r o b b er y st at ut e.

I d. ( citi n g U nit e d

2

St at es v. S e lf a, 9 1 8 F. 2 d 7 4 9, 7 5 1 ( 9t h Cir. 1 9 9 0)). I n S elf a , t h e c o urt r e as o n e d t h at a cri m e c o m m itt e d

3

b y “i nti mi d ati o n, ” w hi c h is d efi n e d as a n a cti o n t h at willf ull y p uts a “ r e as on a bl e p ers o n i n f e ar of b o dil y

4

h ar m , ” s atisfi es t h e r e q uir e m e nt of a “t hr e at e n e d us e of p h ysi c al f or c e. ” I d. T h er ef or e, b e c a us e H o b bs

5

A ct r o b b er y r e q uir es t h at t h e d ef e n d a nt willf ull y pl a c e t h e vi cti m i n “f e ar of i nj ur y, ” it als o r e q uir es t h e

6

t hr e at of p h ysi c al f or c e, a n d t h er ef or e q u alifi es as a cri m e of vi ol e n c e u n d er t h e f or c e cl a us e. H o w ar d ,

7

6 5 0 F. A p p’ x at 4 6 8.

8

P etiti o n er s c o nt e n d t h at H o b bs A ct r o b b er y c at e g ori c all y f ails t o q u alif y as a cri m e of vi ol e n c e

9

f or t hr e e r e as o ns: ( 1) it c a n b e a c c o m plis h e d b y p utti n g a n ot h er i n f e ar of i nj ur y t o i nt a n gi bl e pr o p ert y,

10

w hi c h d o es n ot r e q uir e t h e t hr e at of p h ysi c al f or c e t o pr o p ert y n e c ess ar y u n d er § 9 2 4( c)( 3)( B); ( 2 ) it c a n

11

b e c o m mitt e d b y pl a ci n g a p ers o n i n f e ar of p h ysi c al i nj ur y wit h o ut t h e us e, att e m pt e d us e, or t hr e at e n e d

12

us e of vi ol e nt p h ysi c a l f or c e; a n d ( 3) it d o es n ot r e q uir e pr o of t h at t h e d ef e n d a nt i nt e nti o n all y us e d,

13

t hr e at e n ed t o us e, or att e m pt e d t o us e vi ol e nt p h ysi c al f or c e.
1.

14
15
16
17
18
19

H o b bs A ct R o b b e r y C a n n ot B e A c c o m plis h e d W it h o ut A ct u al o r T h r e at e n e d
Vi ol e nt P h ysi c al F o r c e

P etiti o n er s ar g u e t h at H o b bs A ct r o b b er y c a n n ot q u alif y as a cri m e of vi ol e n c e u n d er t h e f or c e
cl a us e aft er t h e S u pr e m e C o urt’s d e cisi o n i n J o h ns o n v. U nit e d St at es , 1 3 0 S. Ct. 1 2 6 5 ( 2 0 1 0) ( “J o h ns o n
I”) , w hi c h h el d t h at a cri m e of vi ol e n c e r e q uir es “ vi ol e nt p h ysi c al f or c e. ” ( E C F N o. 4 8 6 at 5.) First,
a c c or di n g t o P etiti o n ers, t h e t a ki n g of pr o p ert y t hr o u g h t hr e at e ni n g i nj ur y t o a n ot h er’s i nt a n gi bl e

20
21
22
23
24
25
26

2

T h e f e d er al b a n k r o b b er y st at ut e s h ar es t h e s a m e ess e nti al el e m e nts as H o b bs A ct r o b b er y. S e e H o w ar d , 6 5 0 F. A p p’ x at
4 6 8 ( d es cri bi n g f e d er al b a n k r o b b er y a n d H o b bs A ct r o b b er y as “ a n al o g o us ”). B ot h st at ut es cri mi n ali z e t h e t a ki n g of
pr o p ert y b y a ct u al or t hr e at e n e d f or c e or vi ol e n c e, or b y i nti mi d ati o n/f e ar of i nj ur y. T h e f e d er al b a n k r o b b er y st at ut e
pr o vi d es: “( a) W h o e v er, b y f or c e a n d vi ol e n c e, or b y i nti mi d ati o n, t a k es, or att e m pts t o t a k e, fr o m t h e p ers o n or pr es e n c e of
a n ot h er a n y pr o p ert y or m o n e y or a n y ot h er t hi n g of v al u e b el o n gi n g t o, or i n t h e c ar e, c ust o d y, c o ntr ol, m a n a g e m e nt, or
p oss essi o n of, a n y b a n k, cr e dit u ni o n, or a n y s a vi n gs a n d l o a n ass o ci ati o n; . . . s h all b e fi n e d n ot m or e t h a n $ 5, 0 0 0 or
i m priso n e d n ot m or e t h a n t w e nt y y e ars, or b ot h. ” 1 8 U. S. C. § 2 1 1 3( a).

7

C7

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 8 of 1 3

1

pr o p ert y d o es n ot s atisf y t h e r e q uir e m e nt of “ vi ol e nt p h ysi c al f or c e ” o utli n e d i n J o h ns o n I. 3 (I d. at 6- 7.)

2

P etiti o n e rs als o ar g u e m or e g e n er all y t h at t h e a ct of p utti n g s o m e o n e i n “f e ar of i nj ur y ” t o his p ers o n

3

als o d o es n ot r e q uir e t h e us e, att e m pt e d us e, or t hr e at e n e d us e of vi ol e nt p h ysi c al f or c e. (I d. at 8- 9.)

4

First, alt h o u g h P etiti o n ers ar g u e t h at a c o n vi cti o n u n d er t h e H o b bs A ct r o b b er y c a n b e s ust ai n e d

5

o n t h e b asis t h at t h e vi cti m f e ar e d i nt a n gi bl e e c o n o mi c i nj ur y t h at d o es n ot e n c o m p ass vi ol e nt p h ysi c al

6

f or c e, t h e c as e l a w is cl e ar t h at H o b bs A ct r o b b er y c a n n ot b e a c c o m plis h e d wit h o ut t h e t hr e at of

7

p h ysi c al f or c e. T h e c as es cit e d b y P etiti o n ers r ef er t o H o b bs A ct e xt orti o n, n ot H o b bs A ct r o b b er y;

8

H o b bs A ct e xt orti o n is a s e p ar at e cri m e wit h diff er e nt el e m e nts. U nit e d St at es v. M c C allist er , N o. 1 5-

9

0 1 7 1 ( A BJ) , 2 0 1 6 W L3 0 7 2 2 3 7, at * 8- 9 ( D. D. C. 2 0 1 6) ( disti n g uis hi n g b et w e e n c as es d e ali n g wit h

10

H o b bs A ct e xt orti o n a n d H o b bs A ct r o b b er y, a n d c o n cl u di n g t h at H o b bs A ct r o b b er y is c at e g ori c all y a

11

cri m e of vi ol e n c e u n d er t h e f or c e cl a us e of § 9 2 4( c)). N ot a bl y, H o b bs A ct r o b b er y b y d efi niti o n r e q uir es

12

n o n- c o ns e ns u al t a ki n g, w h er e as e xt orti o n t a k es pl a c e w h e n pr o p ert y is t a k e n or o bt ai n e d wit h c o ns e nt.

13

F e ar of e c o n o mi c l oss fr o m a n o n- c o ns e ns u al t a ki n g ( as i n r o b b er y) i m pli citl y t hr e at e ns vi ol e n c e a n d

14

p h ysi c al f or c e i n a w a y t h at f e ar of e c o n o mi c l oss fr o m a c o ns e ns u al t a ki n g ( as i n e xt orti o n) d o es

15

n ot. S e e 1 8 U. S. C. § 1 9 5 1.

16

S e v er al of t h e c as es cit e d b y P etiti o n ers ill ustr at e t h e diff er e n c e. F or e x a m pl e, P etiti o n ers cit e

17

U nit e d St at es v. Mit o v , n otin g t h at f e ar i n t h e e xt orti o n c o nt e xt c a n e n c o m p ass f e ar of e c o n o mi c l oss,

18

s u c h as t h e t hr e at e n ed l oss of s u c c ess i n a ci vil l a ws uit. 4 6 0 F. 3 d 9 0 1, 9 0 7 ( 7t h Cir. 2 0 0 6). T h e C o urt

19

c a n n ot c o n c ei v e of h o w f e ar of i nj ur y b y l oss i n a ci vil l a ws uit c o ul d e v er f or m t h e b asis f or a H o b bs

20

A ct r o b b er y c o n vi cti o n, as o p p os e d t o H o b bs A ct e xt orti o n c o n vi cti o n. S e e als o U nit e d St at es v.

21

H a n c o c k , 1 6 8 F. S u p p. 3 d 8 1 7, 8 2 3 ( D. M d. 2 0 1 6) ( n oti n g t h at “to t h e e xt e nt t h es e c as es d e al wit h

22
23
24
25
26

3

T o t h e e xt e nt P etiti o n ers ar g u es t h at H o b bs A ct r o b b er y is n ot a c at e g ori c al m at c h f or a cri m e of vi ol e n c e u n d er § 9 2 4( c)
b e c a us e t h e f or m er c o nt e m pl at es vi ol e nt p h ysi c al f or c e a g ai nst pr o p ert y, t h at ar g u m e nt f ails u n d er t h e pl ai n l a n g u a g e of b ot h
st at ut es. T h e H o b bs A ct r e q uir es “ a ct u al or t hr e at e n e d f or c e ” or “ vi ol e n c e ” or “f e ar of i nj ur y ” t o “t h e p ers o n or pr o p ert y of
a n ot h er . ” I d. ( e m p h asis a d d e d). T h e f or c e cl a us e of § 9 2 4( c)( 3) als o e x pli citl y i n cl u d es i n t h e d efi niti o n a n y off e ns e t h at “ h as
as a n el e m e nt t h e us e, att e m pt e d us e, or t hr e at e n e d us e of p h ysi c al f or c e a g ai nst t h e . . . pr o p ert y of a n ot h er . ” I d. ( e m p h asis
a d d e d). T h er ef or e, as f ar as t h e pr o p ert y el e m e nt is c o n c er n e d, t h e st at ut es ar e a n e x a ct m at c h u n d er t h e c at e g ori c al a p pr o a c h;
§ 1 9 5 1 is n o br o a d er t h a n § 9 2 4( c).

8

C8

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 9 of 1 3

1

‘i nt a n gi bl e pr o p ert y,’ it a p p e ars t o b e i n t h e c o nt e xt of t h e pr o p ert y b ei n g e xt ort e d, i. e., t a k e n, n ot t h e

2

pr o p ert y b ei n g s u bj e ct e d t o t hr e ats or a ct u al f or c e or f e ar of i nj ur y ”). T h e ot h er c as es cit e d b y P etiti o n ers

3

w h er e H o b bs A c t e xt orti o n w as c o m mitt e d b y f e ar of e c o n o mi c i nj ur y si mil arl y d o n ot tr a nsl at e t o t h e

4

r o b b er y c o nte xt. S e e, e. g. , U nit e d St at es v. C olli ns , 7 8 F. 3 d 1 0 2 1, 1 0 3 0 ( 6t h Cir. 1 9 9 6) (f e ar t h at o n e

5

mi g ht “l os e t h e o p p or t u nit y t o c o m p et e f or g o v er n m e nt c o ntr a cts o n a l e v el pl a yi n g fi el d ” w as s uffi ci e nt

6

f or e xt orti o n); U nit e d St at es v. Cr uz- Arr o y o , 4 6 1 F. 3 d 6 9, 7 4 ( 1st Cir. 2 0 0 6) ( n oti n g t h at f e ar

7

“ e n c o m p ass es f e ar of e c o n o mi c l oss, i n cl u di n g b usi n ess o p p ort u niti es ”) . P etiti o n ers h a v e n ot off er e d a

8

pl a usi bl e h y p ot h eti c al s c e n ari o i n w hi c h H o b bs A ct r o b b er y c o ul d cr e at e a f e ar of i nj ur y t o i nt a n gi bl e

9

pr o p ert y wit h o ut t h e us e or t hr e at of vi ol e nt p h ysi c al f or c e. S e e U nit e d St at es v. Hill , 8 3 2 F. 3 d 1 3 5, 1 4 1

10

n. 8 ( 2 d Cir. 2 0 1 6) (r ej e cti n g t h e s a m e ar g u m e nt b e c a us e d ef e n d a nt “ f ail e d t o s h o w a n y r e alisti c

11

pr o b a bilit y t h at a p er p etr at or c o ul d eff e ct s u c h a r o b b er y i n t h e m a n n er h e p osits wit h o ut e m pl o yi n g or

12

t hr e at e ni n g p hysi c al f or c e ”) .

13

L astl y, P etiti o n ers ar g u e m or e g e n er all y t h at H o b bs A ct r o b b er y d o es n ot c o nstit ut e a cri m e of

14

vi ol e n c e b e c a us e it c a n b e a c c o m plis h e d m er el y “ b y pl a ci n g a n ot h er i n f e ar of i nj ur y t o his p ers o n ”

15

wit h o ut t h e us e of f or c e. P etiti o n ers cit e a S e c o n d Cir c uit c as e f or t h e pr o p ositi o n t h at “ h u m a n

16

e x p eri e n c e s u g g ests n u m er o us e x a m pl es of i nt e nti o n all y c a usi n g p h ysi c al i nj ur y wit h o ut t h e us e of

17

f or c e, s u c h as a d o ct or w h o d eli b er at el y wit h h ol ds vit al m e di ci n e fr o m a si c k p ati e nt. ” (S e e E C F N o. 6 0 0

18

at 8 ( citi n g C hrz a n os ki v. As h cr oft , 3 2 7 F. 3 d 1 8 8, 1 9 6 ( 2 d Cir. 2 0 0 3)). A g ai n, h o w e v er, t his h y p ot h eti c al

19

f ails t o e x pl ai n h o w a r o b b er y c o ul d e v er b e c o m mitt e d wit h f e ar of i nj ur y b ut wit h o ut t hr e at vi ol e nt

20

p h ysi c al f or c e. S u pr e m e C o urt pr e c e d e nt r e q uir es P etiti o n ers t o pr es e nt a “r e alisti c pr o b a bilit y, n ot a

21

t h e or eti c al p ossi bilit y ” t h at a c o n vi cti o n u n d er § 2 1 1 3( a) & ( d) c o ul d b e s ust ai n e d wit h o ut d e m o nstr ati n g

22

i nt e nti o n al thr e at e n e d f or c e. S e e G o nz al es v. D u e n as- Al v ar ez , 5 4 9 U. S. 1 8 3, 1 9 3 ( 2 0 0 7). P etiti o n ers

23

h a v e n ot d o n e s o h er e.

24
25
26

A t a ki n g b y “ a ct u al or t hr e at e n e d f or c e ” or “ vi ol e n c e ” or “f e ar of i nj ur y ” n e c ess aril y i n v ol v es at
l e ast t h e t hr e at t o use vi ol e nt f or c e. C o urts t h at h a v e c o nsi d er e d t his q u esti o n i n t h e w a k e of J o h ns o n II
9

C9

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 1 0 of 1 3

1

h a v e als o r e a c h e d t h e c o n cl usi o n t h at “f e ar of i nj ur y ” is “li mit e d t o f e ar of i nj ur y fr o m t h e us e of

2

vi ol e n c e, ” a n d t h er ef or e h a v e d et er mi n e d t h at H o b bs A ct r o b b er y c a n n ot b e c o m mitt e d wit h o ut vi ol e nt

3

p h ysi c al f or c e i n a c c or d a n c e wit h t h e S u pr e m e C o urt’s h ol di n g i n J o h ns o n I . S e e Hill , 8 3 2 F. 3 d at 1 4 0-

4

4 4; U nit e d St at es v. A n gli n , 8 4 6 F. 3 d 9 5 4 ( 7t h Cir. 2 0 1 7) ( co n cl u di n g t h at H o b bs A ct r o b b er y is

5

c at e g ori c all y a cri m e of vi ol e n c e u n d er § 9 2 4( c)( 3)( A) b e c a us e it “ n e c ess aril y r e q uir es usi n g or

6

t hr e at e ni n g f or c e ”); I n r e St. Fl e ur, 8 2 4 F. 3 d 1 3 3 7, 1 3 4 0 ( 1 1t h Cir. 2 0 1 6) (s a m e); U nit e d St at es v.

7

F ar m er , 7 3 F. 3 d 8 3 6, 8 4 2 ( 8t h Cir. 1 9 9 6) ( H o b bs A ct r o b b er y h as “ as a n el e m e nt t h e us e, att e m pt e d us e,

8

or t hr e at e n e d us e of p h ysi c al f or c e a g ai nst t h e p ers o n of a n ot h er ”) ; U nit e d St at es v. B ail e y , N o. C R 1 4-

9

3 2 8- C A S, 2 0 1 6 W L 3 3 8 1 2 1 8, at * 4 ( C. D. C al. 2 0 1 6) ( “ ‘f e ar of i njur y t o [ o n e’s] . . . pr o p ert y’ u n d er 1 8

10

U. S. C. § 1 9 5 1( b)( 1) i n cl u d es o nl y f e ar of i nj ur y fr o m t h e us e of f or c e, a n d n ot f e ar i nstill e d b y, f or

11

e x a m pl e , t hr e at e n e d e c o n o mi c d e v al u ati o n of st o c ks or p h ysi c al d ef a ci n g of a b uil di n g ”),

12

r e c o nsi d er ati o n d e ni e d s u b n o m. U nit e d St at es v. D ors e y , N o. 2: 1 4-C R - 0 3 2 8( B)- C A S, 2 0 1 6 W L

13

3 6 0 7 1 5 5 ( C. D. C al. J u n e 3 0, 2 0 1 6); U nit e d St at es v P e n a , 1 6 1 F. Su p p. 3 d 2 6 8, 2 7 7 ( S. D. N. Y. 2 0 1 6)

14

( “t h e t e xt, hist or y, a n d c o nt e xt of t h e H o b bs A ct c o m p el a r e a di n g of t h e p hr as e ‘f e ar of i nj ur y’ t h at is

15

li mit e d t o f e ar of i nj ur y fr o m t h e us e of f or c e ”).

16

2.

H o b bs A ct R o b b e r y R e q ui r es G e n e r al I nt e nt

17

P etiti o n er s f urt h er ar g u e t h at H o b bs A ct r o b b er y d o es n ot r e q uir e t h e us e of i nt e nti o n al vi ol e nt

18

f or c e, a n d t h er ef or e d o es n ot m e et t h e m e ns r e a r e q uir e m e nt n e c ess ar y t o s atisf y t h e f or c e cl a us e of

19

§ 9 2 4( c)( 3). ( E C F N o. 4 8 6 at 1 1- 1 3.) I n L e o c al v. As h cr oft , t h e S u pr em e C o urt h el d t h at a D UI w as n ot a

20

cri m e of vi ol e n c e b e c a us e t h e off e ns e c o ul d b e c o m mitt e d t hr o u g h m er e n e gli g e n c e. 5 4 3 U. S. 1, 9- 1 0

21

( 2 0 0 4). T h e Ni nt h Cir c uit e xt e n d e d L e o c al’s h ol di n g, c o n cl u di n g t h at off e ns es t h at c o ul d b e c o m mitt e d

22

t hr o u g h m er e re c kl ess n ess als o d o n ot fit wit hi n t h e cri m e of vi ol e n c e u m br ell a. F er n a n d ez- R uiz v.

23

G o nz al es , 4 6 6 F. 3 d 1 1 2 1, 1 1 3 2 ( 9t h Cir. 2 0 0 6). T h er ef or e, a n y cri m e t h at c a n b e c o m mitt e d wit h o ut

24

i nt e nti o n al or willf ul c o n d u ct (i n ot h er w or ds, a cri m e t h at c a n b e c o m mitt e d wit h m er e n e gli g e n c e or

25

r e c kl ess n ess) c a n n ot c o nstit ut e a cri m e of vi ol e n c e. I d.

26

10

C10

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O
1

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 1 1 of 1 3

P etiti o n ers ar g u e t h at b e c a us e a c o n vi cti o n u n d er t h e a n al o g o us f e d er al b a n k r o b b er y st at ut e c a n

2

b e s ust ai n e d w h e r e t h e d ef e n d a nt di d n ot h a v e a s p e cifi c i nt e nt t o us e i nti mi d ati o n, s e e, e. g., U nit e d

3

St at es v. W o o dr u p , 8 6 F. 3 d 3 5 9 ( 4t h Cir. 1 9 9 6); U nit e d St at es v. F o p p e , 9 9 3 F. 2 d 1 4 4 4, 1 4 5 1 ( 9t h Cir.

4

1 9 9 3) ; U nit e d St at es v. K ell e y , 4 1 2 F. 3 d 1 2 4 0, 1 2 4 4 ( 1 1t h Cir. 2 0 0 5), H o b bs A ct r o b b er y li k e wis e d o es

5

n ot r e q uir e i nt e nti o n a l or willf ul c o n d u ct a n d t h er ef or e d o es n ot m e et t h e m e ns r e a r e q uir e m e nt

6

n e c ess a r y t o b e a cri m e of vi ol e n c e. I n s u p p ort of t h e ar g u m e nt t h at a n al o g o us l a n g u a g e i n § 2 1 1 3

7

c arri e s a l ess er i nt e nt r e q uir e m e nt a n d t h er ef or e is n ot c at e g ori c all y a cri m e of vi ol e n c e, P etiti o n ers cit e

8

s e v er al cas es w h er e c o urts r ej e ct e d t h e n oti o n t h at a d ef e n d a nt h a d t o h a v e a s p e cifi c i nt e nt t o i nti mi d at e

9

t o b e c o n vi ct e d of f e d er al ar m e d b a n k r o b b er y.

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

A d dr essi n g t h e s a m e ar g u m e nt i n P e n a , t h e c o urt r e as o n e d:
E v e n ass u mi n g t h at t h e S e cti o n 2 1 1 3( a) c as e l a w a p pli es dir e ctl y
t o S e cti o n 1 9 5 1’s d efi niti o n of H o b bs A ct r o b b er y, t h e cit e d c as e l a w d o es
n ot d e m o nstr at e t h at eit h er st at ut e is n ot a cri m e of vi ol e n c e u n d er L e o c al .
S e cti o n 2 1 1 3( a) is n ot a stri ct li a bilit y cri m e. T h e S u pr e m e C o urt h as
e x pl ai n e d t h at S e cti o n 2 1 1 3( a) is a g e n er al i nt e nt cri m e w h os e m e ns r e a
r e q uir e m e nt is s atisfi e d o nl y if t h e “ d ef e n d a nt p oss ess e d k n o wl e d g e wit h
r es p e ct t o t h e a ct us r e us of t h e cri m e ( h er e, t h e t a ki n g of pr o p ert y of
a n ot h er b y f or c e a n d vi ol e n c e or i nti mi d ati o n). ” C art er v. U nit e d St at es ,
5 3 0 U. S. 2 5 5, 2 6 8 ( 2 0 0 0). I n ot h er w or ds, a d ef e n d a nt c h ar g e d wit h b a n k
r o b b er y p urs u a nt t o S e cti o n 2 1 1 3( a) m ust i nt e nti o n all y p erf or m
o bj e cti v el y i nti mi d ati n g a cti o ns i n t h e c o urs e of u nl a wf ull y t a ki n g t h e
pr o p ert y of a n ot h er. If a d ef e n d a nt r o bs a b a n k wit h vi ol e n c e, t h e
pr os e c uti o n n e e d n ot pr o v e a s p e cifi c i nt e nt t o c a us e p ai n or t o i n d u c e
c o m pli a n c e. Si mil arl y, if a d ef e n d a nt r o bs a b a n k wit h i nti mi d ati o n, t h e
pr os e c uti o n n e e d n ot pr o v e a s p e cifi c i nt e nt t o c a us e f e ar. T his d o es n ot
m e a n t h at t h e b a n k r o b b er y w as a c c o m plis h e d t hr o u g h “ n e gli g e nt or
m er el y a c ci d e nt al c o n d u ct. ” L e o c al , 5 4 3 U. S. at 9. A c c or di n gl y, t h e C o urt
r ej e cts P e n a’s “s o m e w h at i m pl a usi bl e p ar a di g m w h er e a d ef e n d a nt
u nl a wf ull y o bt ai ns a n ot h er p ers o n’s pr o p ert y a g ai nst t h eir will b y
u ni nt e nti o n all y pl a ci n g t h e vi cti m i n f e ar of i nj ur y. ” St a n d b err y , 1 3 9 F.
S u p p. 3 d a t 7 3 9. P e n a h as f ail e d t o d e m o nstr at e a “r e alisti c pr o b a bilit y ”
t h at t h e a c ci d e nt al us e of f or c e w o ul d m e et t h e el e m e nts of H o b bs A ct
r o b b er y.
P e n a , 1 6 1 F. S u p p. 3 d at 2 8 3- 8 4. T h e C o urt a gr e es wit h t h e r e as o ni n g i n P e n a . I n d ee d, t his C o urt h as
h el d t h at t h e f e d er al ar m e d b a n k r o b b er y st at ut e t h at P etiti o n ers a n al o gi z e t o h er e is c at e g ori c all y a

25
26

11

C11

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 1 2 of 1 3

1

cri m e of vi ol e n c e, a n d s p e cifi c all y t h at t h e i nt e nt r e q uir e m e nts of § 2 1 1 3 a n d § 9 2 4( c) ar e a c at e g ori c al

2

m at c h. S e e U nit e d St at es v. S ali n as , N o. 1: 0 8- C R - 0 3 3 8- LJ O- S K O, 2 0 1 7 W L 2 6 7 1 0 5 9 ( E. D. C al. J u n e

3

2 1, 2 0 1 7); U nit e d St at es v. T orr es , N o. 1: 1 1-C R - 0 4 4 8- LJ O- S K O, 2 0 1 7 W L 4 3 1 3 5 1, at * 3- 4 ( E. D. C al.

4

J a n. 3 1, 2 0 1 7).
P etiti o n ers als o cit e U nit e d St at es v. A b elis , 1 4 6 F. 3 d 7 3, 8 3 ( 2 d Cir. 1 9 9 8) f or t h e pr o p ositi o n

5
6

t h at a d ef e n d a nt c a n b e c a n b e c o n vi ct e d u n d er t h e H o b bs A ct f or cr e ati n g “f e ar of i nj ur y ” wit h o ut

7

i nt e n di n g t o c a use f e ar t hr o u g h e x pli cit or i m pli cit t hr e ats. P etiti o n ers c o nt e n d t h at i n A b elis “t h e

8

d ef e n d a nt w a s f o u n d t o h a v e s atisfi e d t h e r e q uisit e el e m e nt of c a usi n g f e ar si m pl y o n t h e b asis of his

9

‘r ep ut ati o n as a pr o mi n e nt fi g ur e i n t h e u n d er w orl d.’ ” ( S e e E C F N o. 6 0 0 at 1 2 ( citi n g A b elis , 1 4 6 F. 3 d at

10

8 3). P etit i o n ers misr e a d A b elis , w hi c h e x plicitl y h el d t h at t h e d ef e n d a nt c o ul d n ot h a v e b e e n c o n vi ct e d

11

u n d er t h e c a usi n g-f e ar el e m e nt s ol el y o n t h e b asis of his r e p ut ati o n as a pr o mi n e nt R ussi a n g a n gst er. I d.

12

O n t h e c o ntr ar y, t h e c o urt u p h el d t h e c o n vi cti o n aft er c o n cl u di n g t h at t h e r el e v a nt j ur y i nstr u cti o n

13

a d e q u at el y a d vis e d t h e j ur y t h at “ a d ef e n d a nt m ust k n o wi n gl y a n d willf ull y cr e at e or i nstill f e ar, or us e

14

or e x pl oit e x isti n g f e ar ” t o b e c o n vi ct e d of H o b bs A ct e xt orti o n. I d. T his i nstr u c ti o n is c o nsist e nt wit h

15

t h e C o urt’s c o n cl usi o n t h at k n o wl e d g e or willf ul n ess is r e q uir e d t o s ust ai n a c o n vi cti o n u n d er t h e H o b bs

16

A ct. T his i nt e nt r e q uir e m e nt m at c h es t h e r e q uisit e i nt e nt l e v el f or a cri m e of vi ol e n c e u n d er t h e f or c e

17

cl a us e.

18

H o b bs A ct r o b b e r y is a cri m e of vi ol e n c e u n d er t h e f or c e cl a us e of § 9 2 4( c)( 3)( A). T h er ef or e,

19

P etiti o n e rs’ s e nt e n c es u n d er § 9 2 4( c)( 1)( A) w er e n ot i m p os e d i n vi ol ati o n of t h e C o nstit uti o n or t h e l a ws

20

of t h e U nit e d St at es. T h e C o urt D E NI E S P etiti o n ers’ § 2 2 5 5 m oti o ns.

21
22

V. C E R TI FI C A T E O F A P P E A L A BI LI T Y
A n a p p e al m a y n ot b e t a k e n fr o m t h e d e ni al of a § 2 2 5 5 m oti o n u nl ess a c ertifi c at e of

23

a p p e al a bilit y is iss u e d. 2 8 U. S. C. § 2 2 5 3( c )(1). “ A c ertifi c at e of a p p e al a bilit y m a y iss u e . . . o nl y if t h e

24

a p pli c a nt h as m a d e a s u bst a nti al s h o wi n g of t h e d e ni al of a c o nstit uti o n al ri g ht. ” I d. § 2 2 5 3( c)( 2). T o

25

o bt ai n a c ertifi c at e of a p p e al a bilit y, P etiti o n ers “ m ust d e m o nstr at e t h at t h e iss u es ar e d e b at a bl e a m o n g

26

12

C12

C a s e 1: 9 5- cr- 0 5 1 1 1- L J O

D o c u m e nt 6 0 9

Fil e d 0 8/ 2 1/ 1 7

P a g e 1 3 of 1 3

1

j urists of r e as o n; t h at a c o urt c o ul d r es ol v e t h e iss u es i n a diff er e nt m a n n er; or t h at t h e q u esti o ns ar e

2

a d e q u at e t o des er v e e n c o ur a g e m e nt t o pr o c e e d f urt h er. ” L a m bri g ht v. St e w art , 2 2 0 F. 3 d 1 0 2 2, 1 0 2 5 ( 9t h

3

Cir. 2 0 0 0) (i nt er n a l q u ot ati o n m ar ks a n d cit ati o ns o mitt e d).

4

B e c a us e P etiti o n ers h a v e f ail e d t o m a k e a s h o wi n g t h at h e w as d e ni e d a c o nstit uti o n al ri g ht, t h e

5

C o urt D E C LI N E S t o iss u e a c ertifi c at e of a p p e al a bilit y p urs u a nt t o 2 8 U. S. C. § 2 2 5 3( c)( 2) as t o eit h er

6

m oti o n. S e e Sl a c k v. M c D a ni el, 5 2 9 U. S. 4 7 3, 4 8 4 ( 2 0 0 0).
VI. C O N C L U SI O N A N D O R D E R S

7
8

A c c or di n gl y, I T I S H E R E B Y O R D E R E D t h at P etiti o n ers Mi c h a el E u g e n e St e w ar d a n d L arr y

9

D a ni el H arris’ M oti o ns t o V a c at e, S et Asi d e, or C orr e ct S e nt e n c e p urs u a nt t o § 2 2 5 5 ( E C F N os. 6 0 0,

10

6 0 4) ar e D E NI E D . T h e C o urt D E C LI N E S t o iss u e a c ertifi c at e of a p p e al a bilit y as t o eit h er m oti o n.

11
12
13
14

IT I S S O O R D E R E D.
D at e d:

A u g ust 1 8, 2 0 1 7

/s/ L a w r e n c e J. O’ N eill _ _ _ _ _

U NI T E D S T A T E S C HI E F DI S T RI C T J U D G E

15
16
17
18
19
20
21
22
23
24
25
26

13

C13

c

1.

U NI T E D

S T A T E S

DI S T RI C T

E A S T E R N DI S T RI C T

O F

C O U R T

C A LI F O R NI A

J U D G M E N T I N A
U NI T E D

S T A T E S

O F

( F or Off e n s e s

A M E RI C A

v s

( N a m e of

Case

C o m mitt e d

N u m b e r:

C RI MI N A L

o n or Aft e r

1 : 9 5 C R 0 5 1 1 1- 0 0 3- Q
K A T H F RI N F

D ef e n d a nt )

D ef e n d a nt' s

C A S E

N o v e m b er

W

1 , 1 9 8 7)

J2

W

*\ %

H A R T

Att o r n e y

A

T H E D E F E N D A N T:

[]

Pl e a d e d

g uilt y t o C o u nt ( s )

n

Pl e a d e d

n ol o c o nt e n d e r e t o C o u nt ( s )

[ X]
aft e r

W as

r 3.

%

^&

\

\

O N E,

w hi c h
T W O,

w as

\

a c c e pt e d b y t h e C o u rt.

T H R F F,

F O U R,

R F V F N,

FI G H T,

NI N Ff

T F N

, Fl F V F M

a n H T W FI V F

n ot g uilt y.

D at e
Ti tl f t

' «*
<S
\

.

f o u n d g uilt y o n C o u nt ( s )

a pl e a of

^

%

&

S a n ti n n

18 U S C

1 9 5 1

N at n r a

( a)

9 2 4( c)( 1)

1 8

U S C

2

1 8

U S C

9 2 4( c)( 1)

1 8

U S C

2

and

C o u nt

O F

C RI M E
a n d

C O M M E R C E

R O B B E R Y

U S E

U S E

O F

C RI M E

Off e n s e

Off e n s e

I N T E R F E R E N C E WI T H
B Y

18 U S C

nf

FI R E A R M
O F

FI R E A R M
O F

W H E N

VI O L E N C E,

a n d

W H E N

VI O L E N C E,

0 5/ 3 1/ 9 4

1

0 7/ 0 3/ 9 4

3

0 7/ 3 0/ 9 4

7

0 9/ 1 2/ 9 4

9

0 9/ 1 4/ 9 4

11

C O M MI T TI N G
AI DI N G

&

0 5/ 3 1/ 9 4

m h p r ( fi )

2

A B E T TI N G

C O M MI T TI N G

a n d AI DI N G

N n

&

A B E T TI N G

0 7/ 0 3/ 9 4

4

0 7/ 3 0/ 9 4

8

0 9/ 1 2/ 9 4

1 0

0 9/ 1 4/ 9 4

12

T h e d ef e n d a nt i s s e nt e n c e d a s p r o vi d e d i n p a g e s 2 t h r o u g h & o f t hi s J u d g m e nt.

[]

T h e d ef e n d a nt h a s b e e n f o u n d n ot g uilt y o n c o u nt ( s )

[ X]

C o u nt ( s )

all

r e m ai ni n g

a r e di s mi s s e d

o n t h e m oti o n

It i s f u rt h e r o r d e r e d t h a t t h e d ef e n d a nt s h all n otif y t h e U nit e d
r e si d e n c e o r m aili n g

a d d r e s s u ntil

all fi n e s, r e stit uti o n, c o st s,

D ef e n d a nt' s

S o c.

S e c.

D e f e n d a n t' s

D at e

o f Bi rt h . - Q 5/ 1 Z/ Z 5.

D ef e n d a nt' s

U S M

a/ q - 0 3 4 0 7 - 1 1 ?

D e f e n d a n t' s

m aili n g

o f t h e U nit e d

St at e s

Att o r n e y

f o r t hi s di st ri ct wit hi n

F r a s n n,

of a n y c h a n g e of

D at e

M R F R

F

i fl

Q fi

o f I m p o siti o n o f S e nt e n c e

a d d r e s s:
o f J u di ci al O f fi c e r

J ail

C ali f o r ni a

O LI V E R
U nit e d

D e f e n d a n t' s

d ays

N u m b e r: 5 5 S z £l = 3 1 Al

Si g n at u r e
P n n nt y

3 0

a n d s p e ci al a s s e s s m e nt s i m p o s e d b y t hi s J u d g m e nt a r e f ull y p ai d.

S F P T F

F rft g n n

St at e s.

r e si d e n c e a d d r e s s:

(i n cl u di n g C o u nt y

N a m e

W.

W A N G E R

St at e s

Di s t ri c t

J u d g e

a n d Titl e o f J u di ci al Offi c e r

of r e si d e n c e )

D at e

D1

n a m e,

' a n

7 4 R R

) 3 / R Kl

S h »i »t

9

- I

m n fi t n fi

mf

M

J u d g m e nt - P a g e _ 2 _ _ o f _fi _
D ef e n d a nt:

Case

H A R RI S,

N u m b e r:

L A R R Y D A NI E L

1 : 9 5 C R 0 5 1 1 1- 0 0 3- 0

W

W
I M P RI S O N M E N T

T h e d ef e n d a nt i s h e r e b y c o m mi t t e d t o t h e c u st o d y o f t h e B u r e a u
i m p ri s o n e d f o r a t o t al t e r m o f
1 2 1 M o nt h s

t o C o u nt s

e ac h

t o C o u nt s

[ X ]

T h e

4,

C o u rt

8,

1,

C A LI F O R NI A

3,

7,

1 0, a n d

m ak es

9

a n d

1 1 c o n c u r r e n tl y ;

1 2 M a n d at o r y

6 0 M o nt h s

[

]

T h e d ef e n d a nt s h all s u r r e n d e r t o t h e U nit e d

[]

at _ a. m. / p. m. o n _

[]

a s n otifi e d

b y t h e U nit e d

St at e s

St at e s

b ef o r e 2: 0 0

E

a s n o ti fi e d b y t h e U nit e d
J

St at e s

M a r s h al

t o b e

2

M a n d at o r y

C o n s e c u ti v e ;

2 4 0 M o nt h s

o f P ri s o n s:

M a r s h al.

f o r t hi s di st ri ct,

M a r s h al.

d ef e n d a nt s h all s u r r e n d e r f o r s e r vi c e o f s e nt e n c e a t

[]

[

St at e s

I N S TI T U TI O N

T h e d ef e n d a nt i s r e m a n d e d t o t h e c u st o d y o f t h e U nit e d

The

t o C o u nt

t h e f oll o wi n g r e c o m m e n d ati o n s t o t h e B u r e a u

1

]

o f t h e U nit e d

C o n s e c uti v e

[

[

o f P ri s o n s

1 1 4 1 M O N T H S:

t h e i n s ti t u ti o n d e si g n at e d b y t h e B u r e a u

o f P ri s o n s:,

p. m. o n ^

a s n o ti fi e d b y

St at e s

t h e P r o b ati o n

M a r s h al.

o r P r et ri al

S e r vi c e s

Offi c e.

R E T U R N

/ h av e

e x e c ut e d t hi s J u d g m e nt a s f oll o w s :

D ef e n d a nt
'

d eli v e r e d o n

, wit h

t o

at

a c e rtifi e d c o p y o f t hi s J u d g m e nt.

U nit e d

St at e s

M a r s h al

By
D e p ut y

M a r s h al

D2

' A D

9 A R B

( 3 / 9 B)

S h o at

- S u p e r vi s e d

R el e a s e

J u d g m e nt - P a g e _ 3

D ef e n d a nt:

H A R RI S,

C a s e N u m b e r:

of - 6

L A R R Y D A NI E L

1 : 9 5 C R 0 5 1 1 1- 0 0 3- 0 W W
S U P E R VI S E D R E L E A S E

U p o n
a t e r m of

3 6

T h e

r el e a s e f r o m i m p ri s o n m e nt, t h e d ef e n d a nt s h all b e o n

d ef e n d a nt

c u st o d y of t h e B u r e a u
T h e

s u p e r vi s e d r el e a s e f o r

M O N T H S
s h all

of

r e p o r t t o t h e p r o b ati o n

offi c e

i n t h e di s t ri c t

t o w hi c h

t h e d ef e n d a nt

i s r el e a s e d wi t hi n

7 2

h o ur s

of

r el e a s e f r o m t h e

P ri s o n s.

d ef e n d a nt s h all n ot c o m mit a n ot h e r f e d e r al, st at e, o r l o c al c ri m e.

T h e d ef e n d a nt s h all n ot ill e g all y p o s s e s s a c o nt r oll e d s u b st a n c e.
F o r off e n s e s c o m mitt e d o n o r a f t e r S e pt e m b e r
T h e

d ef e n d a nt

1 5 d a y s of

r ef r ai n f r o m a n y u nl a w f ul

T h e

us e

of

a c o nt r oll e d

s u b st a n c e.

T h e

d ef e n d a nt

s h all s u b mi t t o o n e

d r u g t e s t wi t hi n

1 5

a b o v e d r u g t e sti n g c o n diti o n i s s u s p e n d e d b a s e d o n t h e c o u rt' s d et e r mi n ati o n t h at t h e d ef e n d a nt p o s e s a l o w ri s k of

f u t u r e s u b st a n c e
[ X]

1 9 9 4:

r el e a s e f r o m i m p ri s o n m e nt a n d at l e a st t w o p e ri o di c d r u g t e st s t h e r e aft e r, a s di r e ct e d b y t h e p r o b ati o n offi c e r.

T h e

[]

s h all

1 3,

d ef e n d a nt

s h all

n ot

a b u s e.

p oss ess

( C h e c k, i f a p pli c a bl e. )
a fi r e a r m a s d efi n e d

i n 1 8

U S C

9 2 1.

( C h e c k, i f a p pli c a bl e. )

If t hi s j u d g m e nt i m p o s e s a fi n e o r a r e stit uti o n o bli g ati o n, i t s h all b e a c o n diti o n of s u p e r vi s e d r el e a s e t h at t h e d ef e n d a nt p a y a n y s u c h

fi n e or r e stit uti o n t h at r e m ai n s u n p ai d at t h e c o m m e n c e m e nt of t h e t e r m s of s u p e r vi s e d r el e a s e i n a c c o r d a n c e wit h
s et f o rt h i n t h e C ri mi n al M o n et a r y P e n alti e s s h e et of t hi s j u d g m e nt.
T h e

d ef e n d a nt

al s o c o m pl y wit h

s h all c o m pl y

wi t h

t h e st a n d a r d

c o n diti o n s t h a t h a v e b e e n

a d o pt e d

t h e S c h e d ul e

b y t hi s c o u rt ( s et f o r t h b el o w ) .

T h e

of P a y m e nt s

d ef e n d a nt

s h all

t h e a d diti o n al c o n diti o n s o n t h e att a c h e d p a g e.

S T A N D A R D

C O N DI TI O N S

1)

t h e d ef e n d a nt s h all n ot l e a v e t h e j u di ci al di st ri ct

2)

t h e d ef e n d a nt s h all r e p o rt t o t h e p r o b ati o n

wit h o ut

offi c e r

and

O F

S U P E R VI SI O N

t h e p e r mi s si o n of t h e c o u rt o r p r o b ati o n offi c e r;

s h all s u b mit a t r ut hf ul a n d

c o m pl et e w ritt e n

r e p o rt wit hi n

t h e fi r s t fi v e d a y s of

e a c h m o nt h;
3)

t h e d ef e n d a nt s h all a n s w e r t r ut hf ull y all i n q ui ri e s b y t h e p r o b ati o n offi c e r

4)

t h e d ef e n d a nt

s h all

s u p p o rt hi s o r

5)

t h e d ef e n d a nt

s h all

w or k

a c c e pt a bl e

h e r d e p e n d e nt s

r e g ul a rl y at

a l a w f ul o c c u p ati o n

t h e d ef e n d a nt s h all n otif y t h e p r o b ati o n offi c e r

7)

t h e d ef e n d a nt s h all r ef r ai n f r o m e x c e s si v e

8)

t h e d ef e n d a nt
t h e d ef e n d a nt
f el o n y u nl e s s

1 0)

s h all

n ot

f r e q u e n t pl a c e s

s h all

n ot

a s s o ci at e

g r a nt e d

t h e d ef e n d a nt

c o nt r a b a n d

p e r mi s si o n

s h all p e r mi t

o b s er v e d

ot h e r f a mil y r e s p o n si biliti e s;

u nl e s s

exc us e d

b y t h e p r o b ati o n

o f fi c e r

t h e d ef e n d a nt

s h all

n o ti f y

1 2)

t h e d ef e n d a nt

s h all

n ot

t r ai ni n g, o r

ot h e r

u s e of al c o h ol;

w h er e

wi t h

a ny

t o d o

c o nt r oll e d

p er s o n s

e n g a g e d

s o b y t h e p r o b ati o n

a p r o b ati o n

o f fi c e r

t h e p r o b ati o n

e nt e r i nt o a n y

s u b st a n c e s

t o vi si t hi m

o f fi c e r

or

a r e ill e g all y s ol d, u s e d,

i n c ri mi n al

a c ti vi t y ,

a n d

di s t ri b u t e d

s h all n o t

a s s o ci at e

a d mi ni st e r e d;

wi t h

a n y p er s o n

c o n vi ct e d o f

a

h er

at a n y ti m e at

h o m e

or

el s e w h e r e

a n d

s h all

p e r mi t

c o nfi s c ati o n o f

a ny

offi c e r;

wi t hi n

s e v e nt y -t w o

a g r e e m e nt t o a ct

as

h o ur s

a n i nf o r m e r o r

of

b ei n g

a s p e ci al

a r r e st e d

or

a g e nt of

of t h e c o u rt;

a s di r e ct e d

b y t h e p r o b ati o n offi c e r, t h e d ef e n d a nt s h all n otif y t hi r d p a rti e s of ri s k s t h at m a y

r e c o r d o r p e r s o n al

or

o f fi c e r ;

p e r mi s si o n

d ef e n d a nt' s

f o r s c h o oli n g,

t e n d a y s p ri o r t o a n y c h a n g e i n r e si d e n c e o r e m pl o y m e nt;

i n pl ai n vi e w of t h e p r o b ati o n

1 1)

1 3)

m e et

r e a s o n s;

6)

9)

a n d

a n d f oll o w t h e i n st r u cti o n s of t h e p r o b ati o n offi c e r;

hi st o r y o r c h a r a ct e ri sti c s, a n d s h all p e r mit t h e p r o b ati o n offi c e r t o m a k e
c o m pli a n c e wit h s u c h n otifi c ati o n r e q ui r e m e nt.

q u e sti o n e d

b y

a l a w e nf o r c e m e nt

a l a w e nf o r c e m e nt

a g e n c y

wi t h o u t

offi c e r;
t h e

b e o c c a si o n e d b y t h e d ef e n d a nt' s c ri mi n al
s u c h n otifi c ati o n s

a n d t o c o nfi r m t h e

D3

' A O

9 A K R

» S u p g r vi g a H

c

R gf ^ a g g

J u d g m e n t- P a g a
D ef e n d a nt:
C as e

H A R RI S,

N u m b e r:

L A R R Y

1 : 9 5 C R 0 5 1 1 1- 0 0 3- 0

W

W

A D DI TI O N A L

1)

D ef e n d a nt

ot h e r

2)

3)
4)

D ef e n d a nt

R E L E A S E

m ay

T E R M S

h o m e, a n d v e hi cl e b y a U.

S.

P r o b ati o n

p e r s o n al s u p e r vi si o n of t h e p r o b ati o n

b e g r o u n d s f o r r e v o c ati o n.

T h e

offi c e r,

p a y m e nt s of r e stit uti o n b ot h j oi ntl y a n d s e v e r all y h e r et of o r e o r d e r e d i n i n s t all m e nt s a s

b y t h e p r o b ati o n offi c e r.

D ef e n d a nt

s h all n ot i n c u r n e w d e bt s o r c r e dit c h a r g e s o r o p e n a d diti o n al li n e s of c r e dit wit h o ut

D ef e n d a nt

a ny

b e s u bj e ct t o s e a r c h e s p u r s u a nt t o t hi s c o n diti o n.

s h all p r o vi d e t h e p r o b ati o n offi c e r wit h

D ef e n d a nt

Offi c e r,
wi t h o u t

d ef e n d a nt s h all w a r n

D ef e n d a nt

a s di r e ct e d

6)

F ail u r e t o s u b mit t o a s e a r c h m a y

s h all m a k e

t h e p r o b ati o n
5)

p e r s o n u n d e r t h e i m m e di at e a n d

r e si d e nt s t h a t t h e p r e mi s e s

d et e r mi n e d

S U P E R VI S E D

s h all s u b mit t o t h e s e a r c h of t h ei r p e r s o n, p r o p e rt y,

o r a n y ot h e r a ut h o ri z e d
s e a r c h w a r r a nt.

of. 6

D A NI E L

o f fi c e r

u nl e s s t h e d ef e n d a nt

s h all p a rti ci p at e
b y t h e p r o b ati o n

a c c e s s t o a n y r e q u e st e d fi n a n ci al i nf o r m ati o n.

i s i n c o m pli a n c e wi t h

t h e a p p r o v al of

t h e i n st all m e nt p a y m e nt s c h e d ul e.

i n a c o r r e cti o n al t r e at m e nt p r o g r a m t o o bt ai n

a s si st a n c e f o r d r u g

o r al c o h ol

a b u s e,

s h all n ot f r e q u e nt t h o s e pl a c e s w h e r e

al c o h ol

offi c e r.

s h all a b st ai n f r o m t h e u s e

of al c o h oli c

b e v er a g e s a n d

i s t h e c hi ef it e m of s al e.

J u d g m e nt - S h e et

3( a)

D4

a

A O

9 A. 5 R

f t h e e t B.

P a rt

A

- C ri

mi n al

M n n ar ar v

P a n alti w a

J u d g m e nt — P a g e _ 4

of £

D ef e n d a nt:
H A R RI S, L A R R Y D A NI E L
C a s e N u m b e r: 1 : 9 5 C R 0 5 1 1 1 - 0 0 3 - 0 W W

C RI MI N A L

M O N E T A R Y

P E N A L TI E S

T h e d ef e n d a nt s h all p a y t h e f oll o wi n g t ot al c ri mi n al m o n et a r y
p a y m e nt s s et f o rt h o n S h e et 5, P art 5.

T O T A L S:

[ ] If a p pli c a bl e,

p e n alti e s i n a c c o r d a n c e wit h

A s s fl s s m f t n t

Fi nf =i

R e stit uti o n

$ 5 0 0. 0 0

W AI V E D

$ 9, 7 1 1. 3 0

r e stit uti o n a m o u nt o r d e r e d p u r s u a nt t o pl e a a g r e e m e nt,
$

T o t al s :

$

t h e s c h e d ul e of

$.

$

FI N E
T h e a b o v e fi n e i n cl u d e s c o st s of i n c a r c e r ati o n a n d/ o r s u p e r vi si o n i n t h e a m o u nt of

$.

T h e d ef e n d a nt s h all p a y i nt e r e st o n a n y fi n e of m o r e t h a n $ 2, 5 0 0, u nl e s s t h e fi n e i s p ai d i n f ull b ef o r e t h e
fift e e nt h d a y aft e r t h e d at e of j u d g m e nt, p u r s u a nt t o 1 8 U. S. C. 3 6 1 2 (f ). All of t h e p a y m e nt o pti o n s o n S h e et 5, P a rt
m a y b e s u bj e ct t o p e n alti e s f o r d ef a ult a n d d eli n q u e n c y p u r s u a nt t o 1 8 U. S. C. 3 6 1 2 ( g ).
[ ] T h e

c o u rt h a s d et e r mi n e d

B

t h a t t h e d ef e n d a nt d o e s n ot h a v e t h e a bilit y t o p a y i nt e r e st a n d i t i s o r d e r e d t h a t :

[]

T h e i nt e r e st r e q ui r e m e nt i s w ai v e d.

[]

T h e

i nt e r e st r e q ui r e m e nt i s m o difi e d

a s f oll o w s:

R E S TI T U TI O N
[ ] T h e d et e r mi n ati o n of r e stit uti o n i s d ef e r r e d i n a c a s e b r o u g ht u n d e r C h a pt e r s 1 0 9 A, 1 1 0, 1 1 O A, a n d 1 1 3 A of Titl e
1 8 f o r off e n s e s c o m mitt e d o n o r aft e r 0 9/ 1 3/ 1 9 9 4, u ntil
.. A n A m e n d e d J u d g m e nt i n a C ri mi n al C a s e will
b e e nt e r e d aft e r s u c h d et e r mi n ati o n.
[ X]

T h e

d ef e n d a nt s h all m a k e

r e stit uti o n t o t h e f oll o wi n g p a y e e s i n t h e a m o u nt s

li st e d b el o w.

If t h e d ef e n d a nt m a k e s p a rti al p a y m e nt, e a c h p a y e e s h all r e c ei v e a n a p p r o xi m at el y p r o p o rti o n al p a y m e nt u nl e s s
s p e cifi e d ot h e r wi s e i n t h e p ri o rit y o r d e r o r p e r c e nt a g e p a y m e nt c ol u m n b el o w.
P ri o rit y

Or d er

or

T ot al
M a m a

of

P a y e e

A p pl e b e e' s
G r a n d y' s

The

R e st a u r a nt

Pr e s s

R e st a u r a nt

I n n H ot el

T o t al s :

$ 5, 0 9 3. 2 7

$ 5, 0 9 3. 2 7

$ 2, 5 0 3. 0 3

$ 2, 5 0 3. 0 3

$ 1, 7 4 0. 0 0

$ 1, 7 4 0. 0 0

$ 3 7 5. 0 0

$ 3 7 5. 0 0

1 3,

1 9 9 4.

P e r c e nt a g e
Or d er e d

of

P a y m e nt

$ 9, 7 1 1. 3 0

" Fi n di n g s f o r t h e t ot al a m o u nt of l o s s e s a r e r e q ui r e d u n d e r C h a pt e r s

aft e r S e pt e m b e r

of

R e s ti t u ti o n

R e st a u r a nt

Vi nt a g e

Pi c c a dill y

A m o u nt

1 0 9 A,

1 1 0,

1 1 0 A,

and

1 1 3 A of Titl e

1 8 f o r off e n s e s c o m mitt e d o n o r

D5

A fl

7/ 1 R R

f 3/ Q F > ^ fi h a A t R.

P a rt

R

-

C ri

mi n al

M n n at a r v

r

P a n al ti a g

J u d g m e nt

D ef e n d a nt:
Case

H A R RI S,

N u m b e r:

P a y m e nt s

s h all b e a p pli e d

fi

P A Y M E N T S

( 1 ) a s s e s s m e nt;

o f t h e t ot al fi n e a n d ot h e r c ri mi n al m o n et a r y

[ X]

B

[}

$.

C

[]

n ot l at e r t h a n

( 2 ) r e stit uti o n; ( 3 ) fi n e p ri n ci p al;

( 4) c o st of

D

13

i n i n st all m e nt s t o c o m m e n c e

p e n alti e s s h all b e d u e a s f oll o w s:

i n f ull i m m e di at el y; o r
i m m e di at el y, b al a n c e d u e

a m o u nt of

c ri mi n al

p a y m e nt

{i n a c c o r d a n c e

{ e. g., e q u al, w e e kl y,

Fi n e C e nt e r

o r E);

or

will

of t hi s j u d g m e nt.

I n t h e e v e nt t h e e nti r e
U.

a n d s h all r e q u e st t h e c o u rt t o e st a bli s h a

or

y e ar( s) t o c o m m e n c e

T h e N ati o n al

D,

p ai d p ri o r t o t h e c o m m e n c e m e nt of s u p e r vi si o n, t h e

s h all p u r s u e c oll e cti o n of t h e a m o u nt d u e,

i n

C,

d a y s aft e r t h e d at e

p e n alti e s i m p o s e d i s n ot

s c h e d ul e i f a p p r o p ri at e;

of

wi t h

; or

m o n et a r y

p r o b ati o n offi c e r

[]

O F

i n t h e f oll o wi n g o r d e r:

A

E

of

( 5) i nt e r e st; ( 6) p e n alti e s.

P a y m e nt

S.

_5

1 : 9 5 C R 0 5 0 1 1 1- 0 0 3- 0 W W

S C H E D U L E

p r o s e c uti o n;

—Page

L A R R Y D A NI E L

m o nt hl y,

q u a rt e rl y )

d a y s aft e r t h e d at e

i n st all m e nt s of

$.

o v er

a p e ri o d

of t hi s j u d g m e nt.

c r e dit t h e d ef e n d a nt f o r all p a y m e nt s p r e vi o u sl y m a d e

t o w a r d a n y c ri mi n al m o n et a r y

p e n alti e s i m p o s e d.
S p e ci al

i n st r u cti o n s r e g a r di n g t h e p a y m e nt of c ri mi n al m o n et a r y

[ 3

T h e

[ ]

T h e d ef e n d a nt s h all f o r f ei t t h e d ef e n d a nt' s

p e n alti e s:

d ef e n d a nt s h all p a y t h e c o st of p r o s e c uti o n.

U nl e s s

t h e c o u rt h a s e x p r e s sl y

or d er e d

i nt e r e st i n t h e f oll o wi n g p r o p e rt y t o t h e U nit e d

ot h e r wi s e

p e ri o d of i m p ri s o n m e nt p a y m e nt of c ri mi n al m o n et a r y
c ri mi n al m o n et a r y

p e n alt y

p a y m e nt s

ar e t o b e m a d e

i n t h e s p e ci al i n st r u cti o n s a b o v e,

St at e s:

i f t hi s j u d g m e nt i m p o s e s a

p e n alti e s s h all b e d u e d u ri n g t h e p e ri o d of i m p ri s o n m e nt. All
t o t h e U nit e d

St at e s

C o u rt s

N ati o n al

Fi n e

C e nt e r,

A d mi ni st r ati v e

Offi c e of t h e U nit e d St at e s C o u rt, W a s hi n gt o n,
D C 2 0 5 4 4, e x c e pt t h o s e p a y m e nt s m a d e t h r o u g h t h e B ur e a u of
P ri s o n s' I n m at e Fi n a n ci al R e s p o n si bilit y P r o g r a m.
If t h e N ati o n al Fi n e C e nt e r i s n ot o p e r ati n g i n t hi s di st ri ct, all c ri mi n al
m o n et a r y

p e n alt y

p a y m e nt s

ar e t o b e m a d e

a s di r e ct e d

b y t h e c o u rt, t h e p r o b ati o n

offi c e r,

o r t h e U nit e d

St at e s

Att o r n e y.

D6

A O

7 4. R R ( 3/ Q F >\ R h a at

R

- Rt at a mft nt

of

(

R g a s o r\ g

J u d g m e nt — P a g e _ 6

o f Ji

D ef e n d a nt : H A R RI S, L A R R Y D A NI E L
C a s e N u m b e r: 1 : 9 5 C R 0 5 1 1 1 - 0 0 3 - 0 W W

S T A T E M E N T
[ X]

T h e

c o u rt a d o pt s t h e f a ct u al fi n di n g s a n d g ui d eli n e

O F

R E A S O N S

a p pli c ati o n

i n t h e p r e s e nt e n c e

r e p o rt.

i n t h e p r e s e nt e n c e

r e p o rt e x c e pt

O R
[]

T h e

c o u rt a d o pt s t h e f a ct u al fi n di n g s a n d g ui d eli n e

a p pli c ati o n

(see

att a c h m e nt, if n e c e s s a r y ):
G ui d eli n e

Range
T ot al

D et e r mi n e d

Off e n s e

C ri mi n al

b y t h e c o u rt:

L e v el:

Hi st o r y

3 ?

C at e g o r y:

I m p ri s o n m e nt R a n g e:

S u p e r vi s e d
Fi n e
[ X]
T ot al

[]

R a n g e:

R el e a s e

1 31

R a n g e:

t o

1 R 1 m o nt h s

_ _ 2 _t o

3 _ y e ar s

$ 1 7, 5 0 0. 0 0 t o $ 1 7 5, 0 0 0. 0 0

Fi n e w ai v e d
A m o u nt

o r b el o w t h e g ui d eli n e r a n g e b e c a u s e of i n a bilit y t o p a y.

of R e stit uti o n

R e stit uti o n

i s n ot

$ . 9, 7 1 1 . 3 0

or d er e d

b e c a u s e t h e c o m pli c ati o n a n d

r e s ulti n g f r o m t h e f a s hi o ni n g of a r e stit uti o n o r d e r
vi cti m s,

[]

[]
[]

p u r s u a nt t o 1 8

U. S. C.

p r ol o n g ati o n of t h e s e nt e n ci n g p r o c e s s

o ut w ei g h s t h e n e e d t o p r o vi d e

r e stit uti o n t o a n y

3 6 6 3 ( d ).

F o r off e n s e s t h a t r e q ui r e t h e t ot al a m o u nt of l o s s t o b e st at e d,

p u r s u a nt t o C h a pt e r s 1 0 9 A, 1 1 0, 1 1 0 A,
r e stit uti o n i s n ot o r d e r e d b e c a u s e t h e e c o n o mi c ci r c u m st a n c e s of t h e d ef e n d a nt
d o n ot all o w f o r t h e p a y m e nt of a n y a m o u nt of a r e stit uti o n o r d e r, a n d d o n ot all o w f o r t h e p a y m e nt of
a n y o r s o m e p o rti o n of a r e stit uti o n o r d e r i n t h e f o r e s e e a bl e f ut u r e u n d e r a n y r e a s o n a bl e s c h e d ul e of

and

1 1 3 A

p a y

m e nt s.

P a rti al

of Titl e

1 8,

r e stit uti o n i s o r d e r e d f o r t h e f oll o wi n g r e a s o n ( s ):

T h e s e nt e n c e i s wit hi n t h e g ui d eli n e r a n g e, t h at r a n g e d o e s n ot e x c e e d 2 4 m o nt h s,
r e a s o n t o d e p a rt f r o m t h e s e nt e n c e c all e d f o r b y t h e a p pli c ati o n of t h e g ui d eli n e s.

a n d t h e c o u rt fi n d s n o

O R
[ X3

T h e s e nt e n c e i s wit hi n t h e g ui d eli n e r a n g e, t h at r a n g e e x c e e d s 2 4 m o nt h s,
M ulti pl e g u n e n h a n c e m e nt t e r m s

a n d t h e s e nt e n c e i s i m p o s e d f o r t h e

f oll o wi n g r e a s o n ( s ):

O R
[]

T h e s e nt e n c e d e p a rt s f r o m t h e g ui d eli n e r a n g e:
[]

u p o n m oti o n

[]

f o r t h e f oll o wi n g s p e cifi c

of

t h e g o v e r n m e nt,

a s a r e s ult o f

d ef e n d a nt' s

s u b st a nti al

a s si st a n c e.

r e a s o n ( s ):

D7

I

A Q ^ 4 & B _ { 2/ S 5 } _ S h £ £ U ^ ^ u d g m e D! -i n _ ^ C ci mi a a L £ £ a &

I

U NI T E D

S T A T E S DI S T RI C T

E A S T E R N DI S T RI C T

U NI T E D

S T A T E S

O F

( F or Off e n s e s

A M E RI C A

V S
MI C H A E L

Case

E U C E N E

( N a m e of

S T F

O F

C O U R T

C A LI F O R NI A

J U D G M E N T I N A C RI MI N A L C A S E
C o m mitt e d o n or Aft e r N o v e m b er 1, 1 9 8 7 ) c £

A

&

N u m b e r:

i ' Q. r c r O - M 1 1 . n n ? . n w w

V

<S>

W A R T

P-

D ef e n d a nt )

D ef e n d a nt' s

x ,- A

< F.
V

Att o r n e y
V

T H E D E F E N D A N T:

£ V
\

\

[]

Pl e a d e d

g uilt y

t o C o u nt ( s )

[]

Pl e a d e d

n ol o

[ X]

W a s

f o u n d g uil t y

Ti tl fl

&

.

c o nt e n d e r e t o C o u nt ( s )
o n

C o u nt ( s )

S a n fi n n

U S C

U S C

1 8

U S C

18

U S C

nf

w hi c h
T

W O,

w as

FI V F,

9 2 4( c)( 1)

a n d

and

SI X,

b y t h e C o u rt.

R F V F Nj

a n d

AI DI N G

AI DI N G
W H E N

&

A B E T TI N G

C O M MI T TI N G

&

FI G H T

aft e r

a pl e a

D at e

Off e n s e

C O M M E R C E

A B E T TI N G

C O M MI T TI N G

U S E

O F

C RI M E

U S E

O F

C RI M E

FI R E A R M
O F

of

C o u nt

C n n nl n H e ri

R O B B E R Y

W H E N

9 2 4( c)( 1)

a c c e pt e d

Off e n s e

I N T E R F E R E N C E WI T H
B Y

18

O N Ef

N at u r e

1 8 U S C 1 9 5 1( a)

1 8

\

0 5/ 3 1/ 9 4

1

0 7/ 0 3/ 9 4

5

0 7/ 3 0/ 9 4

7

0 5/ 3 1/ 9 4

2

n ot

g uil t y .

N n m h sr( s)

VI O L E N C E

FI R E A R M

0 7/ 0 3/ 9 4

O F

6

0 7/ 3 0/ 9 4

8

VI O L E N C E

T h e d ef e n d a nt i s s e nt e n c e d a s p r o vi d e d i n p a g e s 2 t h r o u g h 6. o f t hi s J u d g m e nt.
[]

T h e

d ef e n d a nt

[ X]

C o u nt ( s )

all

h a s b e e n f o u n d n ot g uilt y

r e m ai ni n g a r e di s mi s s e d

o n c o u nt ( s )

o n t h e m oti o n

It i s f u rt h e r o r d e r e d t h a t t h e d ef e n d a nt s h all n otif y t h e U nit e d
r e si d e n c e o r m aili n g

a d d r e s s u ntil

all fi n e s, r e stit uti o n, c o st s,

D ef e n d a nt' s

S o c.

S e c.

D ef e n d a nt' s

D at e

o f Bi rt h : 1 2I Q & J 1 Z

D ef e n d a nt' s

U S M

N o: 5 T D B Q 2 2.

D ef e n d a nt' s

m aili n g

of t h e U nit e d
St at e s

Att o r n e y

F rft s n n,

3 0 d ays

of a n y c h a n g e o f n a m e,

D at e

M R F R

R

1 Q Q R

o f I m p o siti o n o f

S e nt e n c *

a d d r e s s:
o f J u di ci al Offi c e r

. J ail

C ali f o r ni a

O LI V E R
U nit e d

D ef e n d a nt' s

wit hi n

N u m b e r: 5 5 Q = 4 5 zl 2 S Q

Si g n at u r e
O n n nt y

f o r t hi s di s t ri c t

a n d s p e ci al a s s e s s m e nt s i m p o s e d b y t hi s J u d g m e nt a r e f ull y p ai d.

R F P T F

F r fl g n n

St at e s.

r e si d e n c e a d d r e s s:

(i n cl u di n g C o u nt y

of

N a m e

W.

W A N G E R

St at e s

Di st ri ct

J u d g e

a n d Titl e o f J u di ci al Offi c e r

r e si d e n c e )

D at e

E1

)
^ 0 _ 2| S B _t 3i a 5] _ S h e el ^ y m £ xl s Q n m £ nl.

D ef e n d a nt:

S T E W A R D,

C a s e N u m b e r:

MI C H A E L

J u d g m e nt - P a g e _ 2 _ o f

E U G E N E

1 : 9 5 C R 0 5 1 1 1- 0 0 2- O W W

I M P RI S O N M E N T
T h e d ef e n d a nt i s h e r e b y c o m mi t t e d t o t h e c u st
o d y of
i m p ri s o n e d f o r a t o t al t e r m o f 5 9 7 M O N T H S:
5 7 M o nt h s

t o C o u nt s

1, 5 &

7 c o n c u r r e ntl y ; 6 0 M o nt h s

t h e B ur e a u

t o C o u nt

o f P ri s o n s

2 M a n d at o r y

C o n s e c uti v e;

C o u nt s

6 & 8 M a n d at o r y

c o n s e c uti v e

[ X]

T h e C o u rt m a k e s

t h e f oll o wi n g r e c o m m e n d ati o n s t o t h e B u r e a u o f
P ri s o n s:

C A LI F O R NI A

St at e s

2 4 0 M o nt h s

t o b e

e ac h t o

I N S TI T U TI O N

I

1

T h e d ef e n d a nt i s r e m a n d e d t o t h e c u st o d y o f
t h e U nit e d

I

]

T h e d ef e n d a nt s h all s u r r e n d e r t o t h e U nit e d

[

o f t h e U nit e d

[]

at - a. m. / p. m. o n _

[]

a s n otifi e d

b y t h e U nit e d

St at e s

St at e s

St at e s

M a r s h al

M a r s h al.

f o r t hi s di st ri ct,

M a r s h al.

T h e d ef e n d a nt s h all s u r r e n d e r f o r s e r vi c e o f s e nt
e n c e a t t h e i n stit uti o n d e si g n at e d b y t h e B u r e a u
o f P ri s o n s:,

[1

b ef o r e

2: 0 0 p. m. o n ^

[

}

a s n o ti fi e d b y

[

J

a s n o ti fi e d b y t h e P r o b ati o n

/ h av e

t h e U nit e d

St at e s

M a r s h al.

o r P r et ri al

e x e c u t e d t hi s J u d g m e n t a s f oll o w s :

D ef e n d a nt

d eli v e r e d o n
t o
a c e rtifi e d c o p y o f t hi s J u d g m e nt.

wit h

U nit e d

St at e s

D e p ut y

M a r s h al

S e r vi c e s

Offi c e.

R E T U R N

at

M a r s h al

By

E2

fi

A H

I

9 4 B B J 3 / 9 B 1 - S h e et s

- Sii p g r vi s p H

(.

Rfil p a g a

J u d g m e nt - P a g e _ 3

D ef e n d a nt:
S T E W A R D, MI C H A E L E U G E N E
C a s e N u m b e r: 1 : 9 5 C R 0 5 1 1 1 - 0 0 2 - O W W
S U P E R VI S E D

of. 6

R E L E A S E

Upon

r el e a s e f r o m i m p ri s o n m e nt, t h e d ef e n d a nt s h all b e o n s u p e r vi s
e d r el e a s e f o r
3 6 M O N T H S

a t er m of
The
c u st o d y o f

d ef e n d a nt s h all r e p o rt t o t h e p r o b ati o n offi c e i n t h e di st ri ct t
o w hi c h

t h e B ur e a u

of

T h e d ef e n d a nt

s h all n ot c o m mit a n ot h e r f e d e r al, st at e, o r l o c al c ri m e.

T h e d ef e n d a nt

s h all n ot ill e g all y p o s s e s s a c o nt r oll e d s u b st a n c e.

F or off e n s e s

t h e d ef e n d a nt i s r el e a s e d wit hi n

P ri s o n s.

c o m mitt e d o n o r aft e r S e pt e m b e r

1 3,

7 2

h o u r s of

r el e a s e f r o m t h e

1 9 9 4:

T h e

d ef e n d a nt s h all r ef r ai n f r o m a n y u nl a wf ul u s e of a c o nt r oll e d
s u b st a n c e. T h e d ef e n d a nt s h all s u b mit t o o n e d r u g t e st wit
hi n
1 5 d a y s of r el e a s e f r o m i m p ri s o n m e nt a n d at l e a st t w o p e ri o
di c d r u g t e st s t h e r e aft e r, a s di r e ct e d b y t h e p r o b ati o n offi c e r.

[]

[ X

fi n e o r

T h e

T h e a b o v e d r u g t e sti n g c o n diti o n i s s u s p e n d e d b a s e d o n t h e
c o u rt' s d et e r mi n ati o n t h at t h e d ef e n d a nt p o s e s
f ut u r e s u b st a n c e a b u s e. ( C h e c k, if a p pli c a bl e. )
d ef e n d a nt s h all n ot p o s s e s s

a fi r e a r m a s d efi n e d i n 1 8 U S C

9 2 1.

( C h e c k, if a p pli c a bl e. )

M o n et a r y

at t h e c o m m e n c e m e nt of t h e t e r m s of s u p e r vi s e d

P e n alti e s

r el e a s e i n a c c o r d a n c e

s h e et of t hi s j u d g m e nt.

T h e d ef e n d a nt s h all c o m pl y wit h t h e st a n d a r d c o n diti o n s t h
a t h a v e b e e n a d o pt e d
al s o c o m pl y wit h t h e a d diti o n al c o n diti o n s o n t h e att a c h e d p
a g e.

S T A N D A R D
1)

t h e d ef e n d a nt

2)

t h e d ef e n d a nt s h all
e ac h

s h all n ot

C O N DI TI O N S

l e a v e t h e j u di ci al di s t ri c t

r e p o rt t o t h e p r o b ati o n

o f fi c e r

wi t h o u t
a n d

O F

t h e p e r mi s si o n

wi t h

t h e S c h e d ul e

b y t hi s c o u rt ( s et f o rt h b el o w ).

T h e

of

P a y m e nt s

d ef e n d a nt s h all

S U P E R VI SI O N

of t h e c o u r t o r p r o b ati o n

s h all s u b mi t a t r u t h f ul a n d

c o m pl et e

w ri t t e n

offi c e r;
r e p o rt wi t hi n

t h e fi r s t fi v e d a y s

of

m o nt h;

3)

t h e d ef e n d a nt s h all a n s w e r t r ut hf ull y all i n q ui ri e s b y t h e p r o
b ati o n offi c e r

4)

t h e d ef e n d a nt

s h all s u p p o rt

t h e d ef e n d a nt s h all

a c c e pt a bl e

w or k

hi s

or

h er

r e g ul a rl y at

r e a s o n s;

d e p e n d e nt s

a n d m e et

a l a w f ul o c c u p ati o n

ot h e r

u nl e s s

a n d f oll o w t h e i n st r u cti o n s of t h e p r o b ati o n offi c e r;

f a mil y r e s p o n si biliti e s;
exc us e d

b y t h e p r o b ati o n

o f fi c e r

f o r s c h o oli n g, t r ai ni n g, o r ot h e r

6)

t h e d ef e n d a nt s h all n otif y t h e p r o b ati o n offi c e r t e n d a y s p ri o
r t o a n y c h a n g e i n r e si d e n c e o r e m pl o y m e nt;

7)

t h e d ef e n d a nt s h all r ef r ai n f r o m e x c e s si v e

8)

t h e d ef e n d a nt

9)

t h e d ef e n d a nt s h all n ot a s s o ci at e wit h a n y p e r s o n s e n g a g e d
i n c ri mi n al a cti vit y,
f el o n y u nl e s s * g r a nt e d p e r mi s si o n t o d o s o b y t h e p r o b ati o n
offi c e r;

1 0)

t h e d ef e n d a nt s h all p e r mit a p r o b ati o n offi c e r t o vi si t hi m o r
h e r at a n y ti m e at h o m e o r el s e w h e r e a n d s h all p e r mit
c o nt r a b a n d o b s e r v e d i n pl ai n vi e w of t h e p r o b ati o n offi c e r;

1 1)

t h e d ef e n d a nt

s h all

n o ti f y

1 2)

t h e d ef e n d a nt

s h all

n ot

p e r mi s si o n
1 3)

a l o w ri s k of

I f t hi s j u d g m e nt i m p o s e s a fi n e o r a r e stit uti o n o bli g ati o n, i t
s h all b e a c o n diti o n of s u p e r vi s e d r el e a s e t h at t h e d ef e n d a nt
p ay a ny s uc h

r e s ti t u ti o n t h a t r e m ai n s u n p ai d

s et f o rt h i n t h e C ri mi n al

5)

1 5

s h all

n ot f r e q u e n t pl a c e s

t h e p r o b ati o n

u s e of

w h er e

o f fi c e r

al c o h ol;

c o nt r oll e d

wi t hi n

s u b st a n c e s

s e v e nt y -t w o

e nt e r i nt o a n y a g r e e m e nt t o a ct

as

a r e ill e g all y s ol d,

h o ur s

u s e d,

di s t ri b u t e d

a n d s h all n ot a s s o ci at e

of b ei n g

a r r e st e d

a n i nf o r m e r o r a s p e ci al a g e nt

o r q u e sti o n e d
of

or

a d mi ni st e r e d;

wit h

a n y p e r s o n c o n vi ct e d of a

c o nfi s c ati o n of a n y

b y a l a w e nf o r c e m e nt

a l a w e nf o r c e m e nt

a g e n c y wi t h o u t

o f fi c e r ;
t h e

of t h e c o u rt;

a s di r e ct e d b y t h e p r o b ati o n

offi c e r,

t h e d ef e n d a nt s h all n otif y t hi r d p a rti e s of

ri s k s t h at m a y

r e c or d o r p e r s o n al hi st o r y or c h a r a ct e ri sti c s, a n d s h all p e r mit t h
e p r o b ati o n offi c e r t o m a k e

d ef e n d a nt' s c o m pli a n c e wi t h

s u c h n otifi c ati o n r e q ui r e m e nt.

b e o c c a si o n e d b y t h e d ef e n d a nt' s

c ri mi n al

s u c h n otifi c ati o n s a n d t o c o nfi r m t h e

E3

Af )

7 4 5 B

H/ Q R )

S h p fi t

3l a >

I

• fii i p a r x/i a a H B al a a c .

I
J u d g m e nt — P a g e J 3

D ef e n d a nt:
S T E W A R D, MI C H A E L E U G E N E
C a s e N u m b e r: 1 : 9 5 C R 0 5 1 1 1 - 0 0 2 - 0 W W

A D DI TI O N A L S U P E R VI S E D R E L E A S E

T E R M S

D

D ef e n d a nt s h all s u b mit
o r a n y ot h e r a ut h o ri z e d
s e a r c h w a r r a nt.
F ail u r e
ot h e r r e si d e nt s t h a t t h e

2)

D ef e n d a nt s h all m a k e p a y m e nt s of r e stit uti o n b ot
h j oi ntl y a n d s e v e r all y wit h
o r d e r e d i n i n st all m e nt s a s d et e r mi n e d b y t h e p r o b
ati o n offi c e r.

3)

D ef e n d a nt

s h all p r o vi d e t h e p r o b ati o n offi c e r wit h

D ef e n d a nt

s h all p a rti ci p at e i n a c o r r e cti o n al t r e at m e nt p r o
g r a m t o o bt ai n
b y p r o b ati o n offi c e r.

4)

a s di r e ct e d

of - 6

t o t h e s e a r c h of t h ei r p e r s o n, p r o p e rt y, h o m e, a
n d v e hi cl e b y a U. S. P r o b ati o n Offi c e r,
p e r s o n u n d e r t h e i m m e di at e a n d p e r s o n al s u p e r
vi si o n of t h e p r o b ati o n offi c e r, wi t h o u t a
t o s u b mit t o a s e a r c h m a y b e g r o u n d s f o r r e v o
c ati o n. T h e d ef e n d a nt s h all w a r n a n y
p r e mi s e s m a y b e s u bj e ct t o s e a r c h e s p u r s u a nt
t o t hi s c o n diti o n.

t h e c o - d ef e n d a nt s h e r et of o r e

a c c e s s t o a n y r e q u e st e d fi n a n ci al i nf o r m ati o n.

J u d g m e nt - S h e et

a s si st a n c e

f or dr u g

o r al c o h ol a b u s e,

3( a)

E4

L.
A O

9 A R B

( 3/ Q R 1 S h o o t

D ef e n d a nt:
Case

F.

P a rt

A

S T E W A R D,

N u m b e r:

- C ri mi n al

l Ul n n c t a r v P e n al ti e s

MI C H A E L

J u d g m e nt - P a g e _ 4
E U G E N E

1 : 9 5 C R 0 5 1 1 1- 0 0 2 - O W W

C RI MI N A L

M O N E T A R Y

P E N A L TI E S.

T h e d ef e n d a nt s h all p a y t h e f oll o wi n g t ot al c ri mi n al m o n et a r y
p a y m e nt s s et f o rt h o n S h e et 5, P art 5.
A s sft s s

mft nt

$ 3 0 0. 0 0

T O T A L S:

[ ] If a p pli c a bl e,

of. 6

r e stit uti o n a m o u nt o r d e r e d

p e n alti e s i n a c c o r d a n c e wit h

Fi n s

R f t s ti ti

W AI V E D

$ 9, 3 7 0. 8 5

t h e s c h e d ul e of

i ti n n

p u r s u a nt t o pl e a a g r e e m e nt

$

$

$

FI N E
T h e

a b o v e fi n e i n cl u d e s c o st s of i n c a r c e r ati o n a n d/ o r s u p e r vi si o n i n t h e a m o u nt of

$.

T h e d ef e n d a nt s h all p a y i nt e r e st o n a n y fi n e of m o r e t h a n $ 2, 5 0 0, u nl e s s t h e fi n e i s p ai d i n f ull b ef o r e t h e
aft e r t h e d at e o f j u d g m e nt, p u r s u a nt t o 1 8 U. S. C. 3 6 1 2 (f ). All of t h e p a y m e nt o pti o n s o n S h e et 5, P a rt
b e s u bj e ct t o p e n alti e s f o r d ef a ult a n d d eli n q u e n c y p u r s u a nt t o 1 8 U. S. C. 3 6 1 2 ( g ).

fi f t e e n t h d a y
m ay

[ ] The

B

c o u rt h a s d et e r mi n e d t h at t h e d ef e n d a nt d o e s n ot h a v e T h e a bilit y t o p a y i nt e r e st a n d i t i s o r d e r e d t h at:

[]

T h e i nt e r e st r e q ui r e m e nt i s w ai v e d.

[]

T h e i nt e r e st r e q ui r e m e nt i s m o difi e d

a s f oll o w s:

R E S TI T U TI O N
[ 1 T h e d et e r mi n ati o n of r e stit uti o n i s d ef e r r e d i n a c a s e b r o u g ht u n d e r C h a pt e r s 1 0 9 A, 1 1 0, 1 1 0 A, a n d 1 1 3 A of Titl e
1 8 f o r off e n s e s c o m mitt e d o n o r aft e r 0 9/ 1 3/ 1 9 9 4, u ntil
.. A n A m e n d e d J u d g m e nt i n a C ri mi n al C a s e will
b e e nt er e d aft e r s u c h d et e r mi n ati o n.
[ X]

T h e d ef e n d a nt s h all m a k e

r e stit uti o n t o t h e f oll o wi n g p a y e e s i n t h e a m o u nt s li st e d b el o w.

If t h e d ef e n d a nt m a k e s p a rti al p a y m e nt, e a c h p a y e e s h all r e c ei v e a n a p p r o xi m at el y p r o p o rti o n al
s p e cifi e d ot h e r wi s e i n t h e p ri o rit y o r d e r o r p e r c e nt a g e p a y m e nt c ol u m n b el o w.

p a y m e nt u nl e s s

P ri o rit y

Or d er

or

T ot al
N a m e

of

P a y e e

A p pi e b e e' s
S p o o ns

A

R e st a u r a nt

R e st a u r a nt

T h e Vi nt a g e

Pr e s s

r e st a u r a nt

T o t al s :

m o u nt

A m o u nt
of

of

P e r c e nt a g e

l. n s s

P a y

$ 5, 0 9 3. 2 7

$ 5, 0 9 3. 2 7

$ 2, 5 3 7, 5 8

$ 2, 5 3 7. 5 8

$ 1, 7 4 0. 0 0

$ 1, 7 4 0. 0 0

$ 9, 3 7 0. 8 5

$ 3^ 3 2 £ L 8 5

" Fi n di n g s f o r t h e t ot al a m o u nt o f l o s s e s a r e r e q ui r e d u n d e r C h a pt e r s
aft e r S e pt e m b e r 1 3, 1 9 9 4.

1 0 9 A,

1 1 0,

1 1 O A,

and

1 13 A

of Titl e

of

m e nt

1 8 f o r off e n s e s c o m mitt e d o n o r

E5

A H

3 A R R

f R / fl R ) fi h g g t R

P n rt

R

- C ri

mi n al

I.

M n n ot n r v

P e n al ti e s

J u d g m e nt - P a g e Ji
D ef e n d a nt:
Case

S T E W A R D,

N u m b e r:

MI C H A E L

1 : 9 5 C R 0 5 1 1 1- 0 0 2- O

W

P a y m e nt s

s h all b e a p pli e d

O F

i n t h e f oll o wi n g o r d e r:

P A Y M E N T S

( 1) a s s e s s m e nt;

( 2) r e stit uti o n; ( 3 ) fi n e p ri n ci p al;

( 4 ) c o st of

{ 5) i nt e r e st; ( 6) p e n alti e s.

P a y m e nt

of t h e t ot al fi n e a n d ot h e r c ri mi n al m o n et a r y

A

[ X ] i n f ull i m m e di a t el y ; o r

B

[]

$.

C

[]

n ot l at e r t h a n

D

[]

i n i n s t all m e n t s t o c o m m e n c e

i m m e di at el y, b al a n c e d u e

a m o u nt o f c ri mi n al

S.

B

W

S C H E D U L E

p r o s e c uti o n;

of

E U G E N E

{i n a c c o r d a n c e

p e n alti e s s h all b e d u e a s f oll o w s:

wi t h

C,

D,

o r E);

or

; or

m o n et a r y

d a y s aft e r t h e d at e o f t hi s j u d g m e nt.

p e n alti e s i m p o s e d i s n ot

p ai d

I n t h e e v e nt t h e e nti r e

p ri o r t o t h e c o m m e n c e m e nt of s u p e r vi si o n, t h e

U.

p r o b ati o n offi c e r s h all p u r s u e c oll e cti o n of t h e a m o u nt d u e, a n d s h all r e q u e st t h e c o u rt t o e st a bli s h a

p a y m e nt s c h e d ul e i f a p p r o p ri at e;
E

[]

i n

( e. g., e q u al, w e e kl y,

of
T h e

or

y e ar{ s) t o c o m m e n c e
N ati o n al

Fi n e

C e nt e r

will

m o nt hl y,

q u a rt e rl y )

i n st all m e nt s o f

d a y s aft e r t h e d at e

$_

o v er

a p e ri o d

of t hi s j u d g m e nt.

c r e dit t h e d ef e n d a nt f o r all p a y m e nt s

p r e vi o u sl y

m a d e

t o w a r d a n y c ri mi n al

m o n et a r y

p e n alti e s i m p o s e d.
S p e ci al

i n st r u cti o n s r e g a r di n g t h e p a y m e nt of c ri mi n al m o n et a r y

[ ]

T h e

d ef e n d a nt s h all p a y t h e c o st o f

[ ]

T h e

d ef e n d a nt

U nl e s s

p r o s e c uti o n.

s h all f o r f ei t t h e d e f e n d a n t' s

t h e c o u rt h a s e x p r e s sl y

or d er e d

i n t e r e s t i n t h e f oll o wi n g p r o p e r t y t o t h e U nit e d

ot h e r wi s e

p e ri o d of i m p ri s o n m e nt p a y m e nt of c ri mi n al m o n et a r y
c ri mi n al m o n et a r y

Offi c e

p e n alt y

of t h e U nit e d

P ri s o n s'
m o n et a r y

p a y m e nt s a r e t o b e m a d e

St at e s

I n m at e Fi n a n ci al

C o u rt,

W a s hi n gt o n,

R e s p o n si bilit y

p e n alti e s:

P r o g r a m.

p e n alt y p a y m e nt s a r e t o b e m a d e

D C

i n t h e s p e ci al i n st r u cti o n s a b o v e,

St at e s:

i f t hi s j u d g m e nt i m p o s e s a

p e n alti e s s h all b e d u e d u ri n g t h e p e ri o d of i m p ri s o n m e nt. All
t o t h e U nit e d

2 0 5 4 4,

If t h e N ati o n al

a s di r e ct e d

St at e s

C o u rt s

N ati o n al

e x c e pt t h o s e p a y m e nt s m a d e
Fi n e C e nt e r

Fi n e

C e nt e r,

A d mi ni st r ati v e

t h r o u g h t h e B ur e a u

i s n ot o p e r ati n g i n t hi s di st ri ct,

b y t h e c o u rt, t h e p r o b ati o n offi c e r,

o r t h e U nit e d

of
all c ri mi n al

St at e s

Att o r n e y.

E6

I

I
A n

7 4. R R

( 3 / 3 5 1 S h fi f t t

f) - St at a

m s nt

nf

R a a g n n c

J u d g m e nt — P a g e 2 3

D ef e n d a nt:
S T E W A R D, MI C H A E L E U G E N E
C a s e N u m b e r: 1 : 9 5 C R 0 5 1 1 1 - 0 0 2 - 0 W W

S T A T E M E N T

O F

of. 6

R E A S O N S

T h e c o u rt a d o pt s t h e f a ct u al fi n di n g s a n d g ui d eli n e a p pli c ati o n i n t h e p r e s e nt e n c e r e p o rt.

[]

O R
[ X]

T h e

c o u rt a d o pt s t h e f a ct u al fi n di n g s a n d g ui d eli n e a p pli c ati o n i n t h e p r e s e nt e n c e

att a c h m e nt, if n e c e s s a r y ): 2 L e v el i n c r e a s e i n off e n s e l e v el a s t o C o u nt
=

2 2

G ui d eli n e

Range

T ot al

D et e r mi n e d

Off e n s e

C ri mi n al

[ X]

T ot al
[]

R a n g e:

(see

off e n s e l e v el, C o u nt

5

b y t h e c o u rt:

C at e g o r y:

I m p ri s o n m e nt R a n g e:

Fi n e

r e p o rt e x c e pt

A dj u st e d

L e v el: — 2 5.

Hi st o r y

S u p e r vi s e d

5 i s d el et e d.

R el e a s e

. — 5 2- t o

R a n g e:

71

2

t o

m o nt h s

3

y e ar s

$ 1 0, 0 0 0. 0 0 t o $ 1 0 0, 0 0 0. 0 0

Fi n e

w ai v e d

A m o u nt

o r b el o w t h e g ui d eli n e

of R e stit uti o n

R e stit uti o n

r a n g e b e c a u s e of i n a bilit y t o p a y.

$ 9, 3 7 0. 8 5

i s n ot o r d e r e d

b e c a u s e t h e c o m pli c ati o n a n d p r ol o n g ati o n o f t h e s e nt e n ci n g p r o c e s s
a r e stit uti o n o r d e r o ut w ei g h s t h e n e e d t o p r o vi d e r e stit uti o n t o a n y
U. S. C. 3 6 6 3 ( d ).

r e s ulti n g f r o m t h e f a s hi o ni n g o f

vi cti m s, p u r s u a nt t o 1 8

[]

F or off e n s e s t h at r e q ui r e t h e t ot al a m o u nt of l o s s t o b e st at e d, p u r s u a nt t o
1 1 3 A of Titl e 1 8, r e stit uti o n i s n ot o r d e r e d b e c a u s e t h e e c o n o mi c ci r c u
d o n ot all o w f o r t h e p a y m e nt of a n y a m o u nt of a r e stit uti o n o r d e r, a n d d o n
a n y o r s o m e p o rti o n of a r e stit uti o n o r d e r i n t h e f o r e s e e a bl e f u t u r e u n d e r a n
and

p a y

[]

C h a pt e r s

1 0 9 A, 1 1 0, 1 1 0 A,
m st a n c e s of t h e d ef e n d a nt
ot all o w f o r t h e p a y m e nt of
y r e a s o n a bl e s c h e d ul e of

m e nt s.

P a rti al

r e stit uti o n i s o r d e r e d f o r t h e f oll o wi n g r e a s o n ( s ):

T h e s e nt e n c e i s wit hi n t h e g ui d eli n e r a n g e, t h at r a n g e d o e s n ot e x c e e d 2 4 m o nt h s,
r e a s o n t o d e p a rt f r o m t h e s e nt e n c e c all e d f o r b y t h e a p pli c ati o n of t h e g ui d eli n e s.

a n d t h e c o u rt fi n d s n o

O R
[]

T h e s e nt e n c e i s wit hi n
f oll o wi n g r e a s o n ( s):

t h e g ui d eli n e r a n g e, t h at r a n g e e x c e e d s 2 4 m o nt h s,

a n d t h e s e nt e n c e i s i m p o s e d f o r t h e

O R
[]

T h e s e nt e n c e d e p a rt s f r o m t h e g ui d eli n e r a n g e:

[]

u p o n m oti o n

0

f o r t h e f oll o wi n g s p e cifi c r e a s o n ( s ):

of t h e g o v e r n m e nt,

a s a r e s ult of d ef e n d a nt' s s u b st a nti al

a s si st a n c e.

E7

Case 1:95-cr-051il-DAD Document 214 Filed 05/28/96 Page 1 of 3

Mriv 28 3 02 PN '96
{;

{:

EAi;

:

·

UNITED STATES DISTRICT COURrJf
..
EASTERN DISTRICT OF CALIFORNIA __________rfEruTrAT FRESNO
UNITED STATES OF AMERICA,
Plaintiff,

CR-F-95-5111- OWW

vs.

VERDICT OF TRIAL JURY

LARRY HARRIS,
Defendant.

Vle the jury in the above-entitled case find, as to the

defendant LllRRY HARRIS, the following verdict:

COUNT ONE - Interference with Commerce by Robbery
(APPLEBEES ON NORTH PALM)

NOT GUILTY - - -

GUILTY

//.

COUNT TWO - Use of a Firearm During a Crime Violence, Aiding
and Abetting (APPLEBEES ON NORTH PALM)

NOT GUILTY

---

GUILTY

COUNT THREE - Interference with Commerce by Robbery
(GRANDY'S ON MOONEY BLVD)

NOT GUILTY - - -

GUILTY

F1

Case 1:95-cr-05111-DAD Document 214 Filed 05/28/96 Page 2 of 3

COUNT FOUR -

Use of a Firearm During a Crime of Violence
(GRANDY'S ON MOONEY BLVD)

NOT GUILTY

COUNT SEVEN -

GUILTY

Interference with Commerce by Robbery
(VINTAGE PRESS RESTAURANT)

NOT GUILTY

COUNT EIGHT -

---

---

GUILTY

Use of a Firearm During a Crime of Violence,
Aiding and Abetting (VINTAGE PRESS RESTAURANT)

NOT GUILTY - - -

1/

GUILTY - - -

COUNT NINE - Interference with Commerce By Robbery
(PICADILLY INN HOTEL}

NOT GUILTY

- --

GUILTY

COUNT TEN - Use of a Firearm During a Crime of Violence,
Aiding and Abetting (PICADILLY INN HOTEL)

NOT GUILTY - - -

GUILTY

.COUNT ELEVEN - Attempted Interference with Commerce by Robbery
(APPLEBEES ON WEST SHAW)

NOT GUILTY

GUILTY

F2

Case 1:95-cr-05111-DAD Document 214 Filed 05/28/96 Page 3 of 3

COUNT TWELVE - Use of a Firearm During a Crime of Violence,
Aiding and Abetting (APPLEBEES ON WEST SHAW)

NOT GUILTY

DATED:

GUILTY

--Isl

7

I

_,, ,... :1 ...

.FOREPERSON

F3

